<html>
<title> - REAUTHORIZATION OF THE DEPARTMENT OF TRANSPORTATION'S HAZARDOUS MATERIALS SAFETY PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         REAUTHORIZATION OF THE
                     DEPARTMENT OF TRANSPORTATION'S
                          HAZARDOUS MATERIALS
                             SAFETY PROGRAM

=======================================================================

                                (111-76)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           November 16, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
53-678                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

?

     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

DINA TITUS, Nevada                   BILL SHUSTER, Pennylvania
HARRY TEAGUE, New Mexico             THOMAS E. PETRI, Wisconsin
NICK J. RAHALL II, West Virginia     JERRY MORAN, Kansas
JERROLD NADLER, New York             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         HENRY E. BROWN, Jr., South 
GRACE F. NAPOLITANO, California      Carolina
JASON ALTMIRE, Pennsylvania          TIMOTHY V. JOHNSON, Illinois
TIMOTHY J. WALZ, Minnesota, Vice     SAM GRAVES, Missouri
Chair                                JIM GERLACH, Pennsylvania
MICHAEL A. ARCURI, New York          CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  LYNN A. WESTMORELND, Georgia
ALBIO SIRES, New Jersey              JEAN SCHMIDT, Ohio
MARK H. SCHAUER, Michigan            CANDICE S. MILLER, Michigan
BETSY MARKEY, Colorado               VERN BUCHANAN, Florida
MICHAEL E. McMAHON, New York         ROBERT E. LATTA, Ohio
THOMAS S. P. PERRIELLO, Virginia     BRETT GUTHRIE, Kentucky
PETER A. DeFAZIO, Oregon             AARON SCHOCK, Illinois
JERRY F. COSTELLO, Illinois          ANH ``JOSEPH'' CAO, Louisiana
BOB FILNER, California               PETE OLSON, Texas
EDDIE BERNICE JOHNSON, Texas
LEONARD L. BOSWELL, Iowa
RICK LARSEN, Washington
MICHAEL H. MICHAUD, Maine
DANIEL LIPINSKI, Illinois
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (ex officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Andenmatten, Mr. Ron, Owner, Cargo Tank Concepts, Ltd............    28
Byrd, Lamont, Director of Safety and Health Department, 
  International Brotherhood of Teamsters.........................    28
Cannon, John F., Vice President - Sales & Marketing, Walker Group 
  Holdings.......................................................    28
Casey, Jim, Vice President and Deputy General Counsel, Air 
  Transport Association of America...............................    28
Chipkevich, Bob, Director, Office of Railroad, Pipeline, and 
  Hazardous Materials Investigations, National Transportation 
  Safety Board...................................................     9
Porcari, Honorable John, Deputy Secretary, U.S. Department of 
  Transportation.................................................     9
Rogers, Mark, Director, Dangerous Goods Program, Air Line Pilots 
  Association, International.....................................    28
Windsor, Barbara, Hahn Transportation, New Market, Maryland, on 
  Behalf of the American Trucking Association....................    28

          PREPARED STATEMENT SUBMITTED BY A MEMBER OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    55

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Andenmatten, Mr. Ron.............................................    59
Byrd, Lamont.....................................................    68
Cannon, John F...................................................    80
Casey, Jim.......................................................    88
Chipkevich, Bob..................................................    90
Porcari, Honorable John..........................................   105
Rogers, Mark.....................................................   115
Windsor, Barbara.................................................   120

                       SUBMISSIONS FOR THE RECORD

Porcari, Honorable John, Deputy Secretary, U.S. Department of 
  Transportation, responses to questions from the Subcommittee...   111

[GRAPHIC] [TIFF OMITTED] T3678.001

[GRAPHIC] [TIFF OMITTED] T3678.002

[GRAPHIC] [TIFF OMITTED] T3678.003

[GRAPHIC] [TIFF OMITTED] T3678.004

[GRAPHIC] [TIFF OMITTED] T3678.005

[GRAPHIC] [TIFF OMITTED] T3678.006

[GRAPHIC] [TIFF OMITTED] T3678.007



    REAUTHORIZATION OF THE DEPARTMENT OF TRANSPORTATION'S HAZARDOUS 
                        MATERIALS SAFETY PROGRAM

                              ----------                              


                       Monday, November 16, 2009

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:05 p.m., at 
the William Donald Schaefer Tower, 6 St. Paul Street, 16th 
Floor, Baltimore, Maryland, Hon. Corrine Brown [Chairwoman of 
the Subcommittee] presiding.
    Ms. Brown of Florida. Good afternoon. The Subcommittee on 
Railroads, Pipelines, and Hazardous Materials will come to 
order.
    The Subcommittee is meeting today to hear testimony on the 
reauthorization of the Department of Transportation's hazardous 
materials safety program.
    Earlier today, we had an opportunity to visit a cargo 
sustaining repair station and see a trailer with plunging 
equipment; and I think it helped us understand what is involved 
with retrofitting these vehicles and what safety advantages it 
provides. I don't believe anyone on our Committee wants to 
compromise the safety of the traveling public or American 
workers, but we need to implement this legislation in a common 
sense manner that doesn't harm the same businesses that we 
relied on to improve the current economic climate.
    H.R. 4016, the Hazardous Materials Safety Act of 2009, 
included important safety provisions that enhanced training for 
emergency responders and hazardous material inspectors, 
stressed enforcement of hazardous materials regulations, and 
improved the performance of the Pipeline and the Hazardous 
Materials Safety Administration.
    However, I feel we need an additional look at issues in 
H.R. 4016 going into next week's mark-up, so I decided to hold 
this field hearing to enable Members of Congress to hear from 
all sides of the issues, including wetlines and lithium battery 
safety.
    Like many Members I spoke to, I do have some concerns with 
the changes affecting wetlines and impact on the trucking 
industry. Currently, there is only one manufacturer in the 
United States that has a system to make cargo trucks--tanker 
trucks comply with the new law we are creating.
    I know that there are patents pending on similar 
technology, but I believe we need to ensure that the equipment 
is available and that there is a robust industry that will spur 
innovation and competition. Manufacturers and repair shops must 
be given time to perfect their product and procedures which, in 
turn, will bring down the cost during these tough economic 
times.
    Similarly, as more and more lithium batteries are 
transported in the United States, we must ensure that there are 
adequate protections in place to ensure safety. But some have 
raised concerns about provisions in the bill related to lithium 
batteries, and I am sure today's witnesses will be able to 
answer any questions that we may have.
    With that, I want to welcome today's panelists and thank 
them for joining us. I am looking forward to their testimony.
    Before I yield to Mr. Shuster, I ask unanimous consent that 
Members be given 14 days to revise and extend their remarks and 
to permit the submission of additional statements and material 
by Members and witnesses. Without objection, so ordered.
    I ask unanimous consent for other Members who are not on 
the Subcommittee to participate in today's hearing and ask 
questions of the witnesses. Without objection, so ordered.
    I yield to Mr. Shuster for an opening statement.
    Mr. Shuster. I thank the chairwoman and thank you for 
holding this hearing.
    As you mentioned, we have already visited a facility today 
that I think gave us a lot of good information on at least the 
wetlines issue that we are facing. So I appreciate you holding 
the hearing.
    I have several serious concerns about the HAZMAT bill that 
we plan to mark up this Thursday; and I have said before we 
need to strike a balance in HAZMAT transportation, making sure 
that the appropriate safeguards are in place while at the same 
time careful not to unnecessarily burden the workhorse 
industries of our economy with restrictions and red tape. In 
certain areas, I am afraid this bill does not do a good job in 
striking that balance.
    It is absolutely essential to our way of life that we are 
able to safely and quickly deliver a wide range of potentially 
dangerous material without unnecessary bureaucratic 
interference. Hazardous materials include everyday consumer 
items we rely on, heating oil, as well as items that are 
critical to our health such as medical devices and the 
chemicals that make our drinking water safe.
    HAZMAT carriers have a remarkably safe record. The 
percentage of hazardous good movements resulting in an injury 
or fatality is an astonishing endorsement of the safety of that 
industry. Only.00002 percent of movement results in an injury 
and about.000014 percent--I don't even know what that number 
is, actually--of movements result in a fatality, unbelievably 
low percentages.
    Of course, anytime there is a loss of life we need to be 
concerned about that and try to find ways to stop it. But it is 
very, very difficult to get zero percentage when you are moving 
items around the country. It is very difficult. In fact, when 
you want to compare it to something, there are four times as 
many deaths caused by lightning strikes annually than hazardous 
materials transportation accidents. So this is a remarkably 
safe industry, considering the huge volume of goods that flow 
through the system.
    We need to make careful choices about where we can best use 
our resources to minimize these small risks while maintaining 
an effectively functioning system. If we regulate too much, we 
risk knotting the system in so much red tape it will cease to 
be effective for its users and could damage the economy.
    I have grave concerns that we are doing exactly that in 
this bill. Creating new regulations could have serious and 
sometimes unintended consequences on the movement of goods and 
commerce as well as on safety.
    This bill requires the rule making regulating shipments of 
lithium batteries and air cargo, despite the fact that PHMSA is 
about to issue a new rule on this very issue in the next few 
weeks. Lithium batteries are everywhere in our society--cell 
phones, BlackBerries, watches, medical devices, laptops, to 
name a few.
    One of the problems with this section is that we mandate 
the shipments of these batteries be placed in crew-accessible 
locations or in fire-resistant containers if there are no fire-
suppressing equipment systems on the plane. The problem is that 
on many flights it would be impossible to place all the 
batteries in a crew-accessible location, and fire-resistant 
containers have not been developed. This means that air cargo 
and airlines would have to invest an unknown amount in fire-
suppression systems that would not necessarily work to 
extinguish all lithium battery fires. If the airlines choose 
not to purchase these systems, it seems likely that many 
lithium battery shipments will be forced on to other modes, 
which would have untold consequences on our commerce and our 
economy. As much as I like the railroads, in many cases air 
cargo is the most efficient method to move these high-value 
goods.
    There are other issues and concerns throughout the directed 
rule making on lithium batteries. Passenger airlines are 
worried about how the section will affect the ability of 
shipments of lithium batteries that are currently allowed. 
Several parties have also raised concerns about how the section 
will comport with international standards and how the new 
prescriptive regulations could impact the United States' 
ability to compete in international markets.
    So I support removing this section from the bill in its 
entirety, letting PHMSA proceed with their the rule making and 
allowing the normal course of notice and comment without this 
inflexible congressional mandate.
    Another issue that concerns me is the ban on carrying 
flammable liquids and wetlines in cargo tank trucks. A ban will 
force many tank car operators to install equipment to purge 
products from the wetlines. The problem with this provision is 
that purging equipment must be installed by welding to the 
cargo tank. I am told that three times as many shop workers 
have been killed in cargo tank welding accidents in the last 10 
years than have been killed in accidents caused by flammable 
materials in the wetlines.
    Additionally, this legislation does not allow for 
manufacturers to develop innovative solutions creating 
equivalent levels of safety for new manufactured trucks.
    Finally, I would like to address the new section on special 
permits and approvals. This section was not included in the 
original highway authorization bill that was marked up in the 
Highway and Transit Subcommittee in June, and we had a hearing 
on this subject in September.
    Special permits and approvals are routinely issued when the 
HAZMAT carrier is performing a function that falls outside the 
normal HAZMAT regulation. Based on what I heard at that hearing 
in September, PHMSA had issues administering this program, but 
I am concerned that the legislation goes beyond just addressing 
the issues of PHMSA. We are creating a new fee system that will 
impose undue costs on industry for processing applications and 
ensuring compliance with the terms of special permits. 
Furthermore, the section requires a new fitness determination 
without giving industry a chance to comment on the rule making.
    So, again, I support making reforms at PHMSA to make sure 
the program is being properly administered, but I think we are 
going too far with this costly and prescriptive regulation that 
will have unknown negative consequences on the important 
industry.
    And, with that, I yield back. I want to also welcome our 
witnesses, and I yield back.
    Ms. Brown of Florida. Thank you.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair. I agree with the 
comments and associate myself with the comments by our Ranking 
Member.
    I think our first responsibility is for providing for the 
safety of our communities. I come from Los Angeles where we are 
just packed, and any accident is not a situation that we look 
forward to.
    The focus of this, of course, is the two important safety 
issues that are to be addressed, the safety of the trucks and 
the air transportation safety, both. I have at least 60,000 
trucks traveling through my district daily, so I have a lot of 
interest in how it is carried and how safe it is. The wetlines 
have caused serious accidents in California that we know of. I 
believe if we have the technology we should be looking at how 
that can be implemented without heavier costs on the trucking 
industry and the ability for it to be implemented.
    The lithium batteries are extremely flammable; and since we 
travel on the airplanes twice a week, I certainly want to 
ensure that we, the passengers, especially the ones I am on, 
are safe. If we have the resources to properly package them and 
stow them on the aircraft, then so be it, but let's find out 
how we can get this done. We must require battery companies and 
airline companies to use as many of these resources as possible 
to protect both the airplane and its cargo of people and its 
regular cargo.
    I do look forward to the testimony, Madame Chair. Thank 
you. I yield back.
    Ms. Brown of Florida. Thank you.
    Mr. Petri, when you make your opening statement, can you 
introduce your person from your district? Because I understand 
you are going to have to leave at some point.
    Mr. Petri. First, I want to thank you, Madam Chairman, for 
holding this important hearing.
    I realize that this issue has been before the Congress for 
some considerable time, but there have been difficulties in 
getting proper input. And I really do think it is important to 
try to follow the regular order and to have an opportunity to 
hear from experts in the industry.
    Because you get into these specialized areas, and people 
ask me what it is like to be a Member of Congress. And I say, I 
didn't know any more the day after I was elected than I knew 
the day before I was elected. Suddenly, I was elected. Suddenly 
to have to vote on all kinds of issues that I was not an expert 
on.
    And the purpose of having hearings and this sort of input I 
think is very important because it gives different elements 
that are concerned about an issue an opportunity to go on the 
public record and to hear each other's views; and we, in 
effect, get to sit a little bit like a jury and try to sort out 
how things fit together. And often in that process the groups 
will come to an informed compromise that serves the public 
interest on their own.
    So I commend you for having this hearing; and I especially 
am glad that you are willing to include a neighbor of mine from 
Fond du Lac, Wisconsin, John Cannon, who flew out I guess 
yesterday from the not-yet snows but frost of Wisconsin to be 
here. He has had over 20 years of experience in the tank 
industry. He has been an engineer. He has served in leadership 
positions on a number of trade associations related to the 
industry. He has written many, many papers and served on many 
industry study groups and I think will be a real addition to 
the hearing when you get to the second panel.
    So thank you very much.
    Ms. Brown of Florida. Thank you.
    Mr. Walz.
    Mr. Walz. Thank you, Madam Chairwoman and Ranking Member 
Shuster. Thank you to the citizens of Maryland for hosting us 
today. It is a great opportunity to be here and watch democracy 
in action.
    To all of our witnesses, I truly appreciate it. For our two 
witnesses from DOT and NTSB, thank you for your service to this 
country. We truly appreciate it.
    We have got advocates here from industry groups that create 
jobs and make this country grow. We have got safety advocates. 
And, like most of us out here, we may be parents; and, like 
Mrs. Napolitano said, safety is a big concern when I strap my 
3-year-old into the car and into the plane. And we also know 
that there has to be that fine line, that sweet spot between 
ensuring safety and commerce and business to be able to 
continue. So I want to thank the chairwoman and the Ranking 
Memberfor taking the time to allow us to be educated.
    Mr. Petri is exactly right. Listening to the experts and 
getting the feedback and going out to cargo tank services this 
morning and crawling underneath there and looking at wetlines 
and listening to experts telling us what we were seeing and 
what happens, that is critically important in rule making and 
legislating.
    I, too, have seen some of the concerns. My constituents 
from out in southern Minnesota have been absolutely concerned. 
And there is no false sides of this. Everyone is concerned 
about safety, and everyone is concerned that we get this right. 
The question is, how do we best do that? How do we make sure 
that the safety and the cost-benefit analysis are coming in and 
how do we allow the rule making of the experts to play a role 
in this?
    So thank you for this opportunity. I am looking forward to 
hearing from our experts today to help us make some decisions 
as we move closer to getting this bill forward.
    With, that I yield back.
    Ms. Brown of Florida. Thank you.
    Mr. Latta.
    Mr. Latta. Thank you, Madam Chair, Ranking Member Shuster. 
Thank you very much for holding this hearing today.
    I, too, as Mr. Shuster, have several concerns with regard 
to section 201 of H.R. 4016, the Hazardous Material and 
Transportation Act, which I raised during hearing on the 
highway bill back in June. The specific section adds a new 
requirement for the transportation of lithium cells and 
batteries. As I noted at that time, I requested input from all 
stakeholders for this mater in the legislation. H.R. 4016 was 
not released until a little time afterwards.
    As I understand it, the Pipeline and Hazardous Materials 
Safety Administration, that is, PHMSA, and the FAA are already 
working on rule making regarding lithium battery transportation 
regulation. Furthermore, that rulemaking will address concerns 
the Highway Subcommittee has raised in addition to allowing for 
public input into this matter. It is my understanding that OMB 
currently has a rule and will be announced in the next several 
weeks to begin the rule making process.
    We are all concerned about the safety issues surrounding 
this matter. However, I believe that the additional regulations 
can be accomplished through the appropriate rule making without 
necessary legislation. This process will allow the public to 
comment on the matter as well as the PHMSA and FAA to offer 
their expertise that they have in the area of transporting 
lithium batteries.
    At this time, I am unclear that the benefits of including a 
provision like section 201 in the legislation, especially when 
the requirements are going to be another thing that is going to 
be detrimented in manufacturing. Imposing these requirements 
could have enormous consequences both for both consumers and 
for American companies. This language contains very restrictive 
requirements that will lead to unnecessary loss of business or 
revenue.
    In my district, there is a lead battery facility that will 
be negatively impacted by this language. At a time when our 
unemployment in parts of my district hovers around 15 percent, 
we cannot pass yet another change that will negatively impact 
business.
    The specific language of the bill restricts placement of 
batteries in aircraft to crew-accessible locations unless the 
battery is in a fire-resistant container or the aircraft has a 
fire-suppression system in place. I believe this is a major 
problem and fear that the practical impact of this language 
will be to ban lithium batteries and devices that use lithium 
batteries, i.e., computers and cell phones, from aviation. 
Currently, there are no fire-resistant containers in existence; 
and it is not possible to place all batteries in crew-
accessible locations on these planes.
    Finally, the legislation does not allow for the 
harmonization with the International Civil Aviation 
Organization standards, the ICAO. In short, it is very 
important that cargo regulations and requirements be harmonized 
internationally. Harmonization best guarantees safety in the 
provision of commerce, especially in aviation. The ICAO has 
spent extensive time and energy creating agreed-to 
international standards that have been adopted.
    In summary, I believe this language will be extremely 
disruptive to the battery manufacturers and could have a very 
negative impact on battery production. And, with that, I thank 
the chairwoman; and I yield back.
    Ms. Brown of Florida. Mr. Cummings.
    Mr. Cummings. Thank you very much, Madam Chair; and let me 
welcome my colleagues not only to my hometown but to my 
district.
    Madam Chair, this is an outstanding facility in which we 
hold this hearing today. The Maryland Public Service Commission 
has shown an exceptional hospitality; and I want to thank the 
Commission, including Chairman Nazarian and all of the other 
Commissioners. And we want to especially thank Ms. Cassandra 
Boykin with the PSC who did just an outstanding job in helping 
us to arrange this hearing.
    I also thank you, Madam Chair, for convening today's 
hearing on the reauthorization of the Department of 
Transportation's hazardous materials safety program. And thank 
you for providing us with an outstanding opportunity to learn 
more about wetlines on tanker trucks through the site visit we 
completed this morning. It was quite educational. We certainly 
thank Mr. Roy Clark for his hospitality.
    We have before us, ladies and gentlemen, an incredibly 
diverse and knowledgeable group of panelists who will help us 
critically examine the issues to be addressed by the hazardous 
materials reauthorization pending before the Transportation 
Committee.
    Let me recognize Deputy Secretary of Transportation John 
Porcari. Mr. Porcari is the former Secretary of the Maryland 
Department of Transportation. I know personally of Secretary 
Porcari's commitment to the safe transport of hazardous 
materials; and I want to thank you, Mr. Secretary, for 
returning to Maryland today.
    I also to extend a special welcome to Ms. Barbara Windsor 
of Maryland's own Hahn Transportation, who is representing the 
American Trucking Association. Last month, I met with Ms. 
Windsor; and she personally assured me of the trucking 
community's focus on ensuring the safe and secure transport of 
hazardous materials.
    Madam Chair, I think that is one of the things that we all 
recognize, that it seems like we have a chorus of people saying 
that they want safety, but they want to make sure that it is 
balanced with regard to cost and other considerations. And so I 
want to thank Ms. Windsor for all that she has done. Thank you 
for your testimony.
    Ladies and gentlemen, we have entrusted the Department of 
Transportation with the critical responsibility of protecting 
the American public and the environment from the risks that the 
transportation of hazardous materials can pose to them. The 
city of Baltimore has experienced a major hazardous materials 
incident. In fact, it occurred not very far from this building; 
and so I know firsthand the risks the transportation of 
hazardous materials can pose.
    Back on July 18th, 2001, 11 cars, including 4 tank cars, of 
a 60-car CSX train, derailed in Baltimore while traveling 
through the Howard Street tunnel, not very far from here. One 
of the tank cars was punctured, releasing a flammable liquid 
which subsequently ignited and burned for days.
    Given the risks associated with the movement of hazardous 
materials, we must trust the DOT and its safety agencies to put 
safety above all considerations.
    Earlier this year, I was shocked to learn that employees at 
PHMSA reported that it is common practice to make decisions on 
whether or not to grant companies special permits or what used 
to be called exemptions from otherwise applicable safety 
regulations based on the financial interest of the company 
seeking the permits rather than the relevant safety concerns.
    Today, we convene to consider the provisions that should be 
included in the hazardous materials reauthorization pending 
before the Transportation Committee, including measures to 
ensure that PHMSA effectively manages the special permits 
program. We will also be joined by a representative from the 
National Safety Transportation Board who will discuss several 
of the Board's top recommendations pertaining to hazardous 
materials transportation.
    Finally, I note that in 2005 the Transportation Research 
Board issued Special Report 238 which found that, while there 
are a number of agencies involved in regulation of hazardous 
materials shipping, each agency often examines its 
transportation from its own isolated perspective. Following the 
release of that report, I introduced legislation to create a 
Hazardous Materials Cooperative Research Program. This program 
was created as a pilot in the SAFETEA-LU legislation. The 
research program has already become an invaluable forum through 
which applied research is being conducted on a multi-modal 
basis on the transportation of hazardous materials.
    It is my hope, Madam Chair, finally that the program will 
be made permanent in the hazardous materials reauthorization. 
And with that I thank you again, and I yield back.
    Ms. Brown of Florida. Thank you.
    And now Ms. Edwards.
    Ms. Edwards. Thank you--I'm not sure this is on. Can 
everyone hear me?
    Thank you, Madam Chairwoman, and thank you to the 
Subcommittee. Because I am not a Member of this Subcommittee, 
but I really appreciate being here in my home State of Maryland 
in my colleague Elijah Cummings' district.
    I recall the September 10th testimony. Some of our 
witnesses, Deputy Secretary Porcari, on PHMSA and some of the 
difficulty, frankly, with the special permitting that has been 
done under this program, it certainly signaled either or both a 
need for legislative statutory action and certainly regulatory 
action. Because you can't run a program just on special 
permitting alone, and that has become incredibly clear with 
PHMSA.
    I will say that, Madam Chairwoman, I am honored that you 
have chosen to conduct this field hearing. Because I think it 
is important for us to be in location on site and with a real-
world experience of the challenges that are in front of us when 
we were considering--as we have been considering this 
legislation.
    It seems to me--again, Mr. Petri, this is also an area I 
don't know a lot about, and I am learning, but it does seem to 
me that there is an important balance to be struck between the 
public safety, worker safety, and the ability to move commerce; 
and that is what we are looking for here. It doesn't 
necessarily mean, in my view, that that means an absence of any 
legislative action at all, but it may mean figuring out what 
that balance is between what is happening currently in the 
regulatory process and what we need to do legislatively.
    I look forward to the testimony today, from the wide range 
of testimony today, so that we can really get some answers and 
figure out the best way to move forward; and I appreciate the 
opportunity to sit in this field hearing as a guest of the 
Subcommittee.
    Thank you, Madam Chair.
    Ms. Brown of Florida. Thank you.
    Now it is my pleasure to introduce our first panel of 
witnesses.
    First, I am going to have the honor of introducing John 
Porcari, who is the Deputy Secretary of the U.S. Department of 
Transportation----
    Mr. Porcari. Thank you.
    Ms. Brown of Florida. --and former Secretary for Maryland.
    And we have with us Mr. Bob Chipkevich, who is the Director 
of the Office of Railroad, Pipeline, and Hazardous Materials 
Investigations at the National Transportation Safety Board.
    I want to welcome both of you here today, and we are very 
pleased to have you.
    We will start with you, Mr. Secretary.

TESTIMONY OF THE HONORABLE JOHN PORCARI, DEPUTY SECRETARY, U.S. 
  DEPARTMENT OF TRANSPORTATION; AND BOB CHIPKEVICH, DIRECTOR, 
     OFFICE OF RAILROAD, PIPELINE, AND HAZARDOUS MATERIALS 
      INVESTIGATIONS, NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Porcari. Thank you, Madam Chairwoman, Ranking Member 
Shuster, and distinguished Members of the Subcommittee. Thank 
you for the opportunity to appear today.
    Secretary LaHood and I regard the safety of America's 
transportation system as our highest priority. When I last 
testified before the Full Committee on September 10th on 
PHMSA's special permit program for hazardous materials, I made 
a commitment to put safety first as we carry out our duty to 
protect people and the environment from the risks inherent in 
hazardous materials transportation. At that time, I told you of 
our step-by-step plan to aggressively address the issues raised 
by the Committee and the Office of Inspector General Advisory 
on Special Permits. I can report to you today that the agency 
is making great strides in completing each action item.
    Today, I would like to address two safety issues 
highlighted by the National Transportation Safety Board and 
Members of this Committee--the risks posed by the 
transportation of lithium batteries, particularly on board 
aircraft, and safety problems associated with the 
transportation of flammable liquids in unprotected product 
piping on cargo tank motor vehicles, known as wetlines.
    In 2008, an estimated 3.3 billion lithium batteries were 
transported worldwide by all modes of transportation, including 
passenger and cargo aircraft. Lithium batteries are regarded as 
hazardous materials because they can overheat and ignite in 
certain conditions and once ignited can be especially difficult 
to extinguish. Since 1991, we have identified over 40 air-
transport-related incidents involving lithium batteries in 
devices powered by lithium batteries.
    We have addressed a number of concerns as the technology of 
lithium batteries develops. For example, regulations that 
prohibit transportation of most metal lithium batteries as 
cargo on passenger aircraft. The prohibition resulted from FAA 
testing indicating that current aircraft cargo fire suppression 
systems would not be capable of suppressing a fire if a 
shipment of metal lithium batteries were ignited in flight. 
However, more work to ensure the safe transport of lithium 
batteries remains.
    In 2006, the NTSB investigated an incident at the 
Philadelphia International Airport in which a fire suspected to 
have been caused by lithium batteries destroyed a United Parcel 
Service cargo aircraft and most of its cargo. The NTSB 
concluded that flight crews on cargo only aircraft are at risk 
from in-flight fires involving lithium batteries. Following the 
incident investigation, the NTSB issued five recommendations to 
PHMSA.
    Of particular concern to the NTSB and the DOT are shipments 
of small lithium batteries that currently are excepted from 
certain regulatory requirements. PHMSA and the FAA have been 
working together with the Committee to address these concerns.
    We are working to improve wetline safety. Wetlines are 
rigid aluminum piping in a cargo tank motor vehicle used to 
load and unload products such as gasoline and diesel fuel. In 
1998, the NTSB recommended the Department prohibit the 
transportation of hazardous materials in wetlines. The 
Department recognized the safety risks associated with wetlines 
and take NTSB's recommendations on wetlines very seriously.
    Recently, the Department completed an in-depth, 
comprehensive review of incident reports and other safety data 
to determine whether rulemaking action to reduce the risks 
associated with the transportation of hazardous materials in 
wetlines are necessary. The review encompassed 6,800 incidents 
involving cargo tanks transporting flammable or combustible 
liquids that occurred during a 10-year period, from 1999 to 
2009, and identified 184 incidents in which wetlines were 
determined to be damaged and/or ruptured.
    A total of 18 of these incidents involved fires. A total of 
13 fatalities and 7 injuries were associated with wetline 
incidents over a 10-year period. Of these, our initial 
conclusion is that 6 fatalities and 7 injuries resulted 
directly from wetlines release. However, we are continuing to 
review the direct cause of the remaining 7 fatalities.
    Based on this incident analysis and our cost-benefit 
assessment of newly available technologies to remove lading 
from product lines and the consequence event, we believe that a 
rulemaking to prohibit the transportation of flammable liquids 
in wetlines can reduce safety risks without imposing undue cost 
burdens on the regulated community. Cost-benefit analysis is 
important to our consideration for regulatory action, but we 
will also consider the potential risks and consequences of more 
severe accidents. We plan to issue a notice of proposed 
rulemaking in 2010.
    Madame Chairman, as you can see, the Department is working 
diligently to reduce the risks posed by the transportation of 
hazardous materials in commerce and to improve the 
effectiveness of PHMSA's safety responsibilities.
    Let me close by recognizing the committee's leadership in 
improving wetline and lithium battery safety in the draft 
HAZMAT reauthorization bill. We look forward to continuing to 
work closely with you to improve cargo tank safety and reduce 
the dangers of transporting lithium batteries on aircraft. 
Thanks again for the opportunity to testify today at the 
special field hearing, and I am happy to take any questions.
    Ms. Brown of Florida. Mr. Chipkevich.
    Mr. Chipkevich. Good afternoon, Madam Chairwoman, Ranking 
Member Shuster, and Members of the Subcommittee and Member 
Edwards. Thank you for the opportunity to appear on behalf of 
the National Transportation Safety Board. I would like to 
highlight NTSB concerns about the hazards of wetlines on cargo 
tanks and the transport of lithium batteries by air.
    Most cargo tanks used to transport fuel are loaded through 
bottom loading lines and then are operated over roads with fuel 
present in this piping. Because of their design, location, and 
vulnerability to being hit by other vehicles, the practice of 
carrying hazardous materials in wetlines increases the 
potential seriousness of any accident.
    In 1988, the U.S. Department of Transportation's Research 
and Special Programs Administration found it unreasonable and 
illogical to allow gasoline to be transported in wetlines. It 
found that the petroleum industry's unwillingness or inability 
to drain cargo lines resulted in widespread noncompliance.
    In a rule published in 1989, RSPA stated that it strongly 
believed that the practice of transporting hazardous materials 
in exposed, unprotected piping, designed to fail if impacted in 
an accident, was an unnecessary risk. RSPA encouraged the 
industry to eliminate this hazard.
    The industry responded but not with a solution. The 
American Petroleum Institute replied that the probability was 
that a fatality would be directly attributed to a wetline 
failure and therefore did not take any action to eliminate this 
hazard.
    The demand for lithium batteries has skyrocketed, and the 
popularity of electronic equipment has also grown. As the use 
of lithium batteries has increased, the number of incidents 
involving fires or overheating of batteries has also grown.
    Fire destroyed two pallets of primary lithium batteries at 
Los Angeles International Airport after the pallets were 
removed from an inbound passenger flight from Japan. The 
batteries were neither identified nor shipped as hazardous 
materials. Instead, they were shipped as ordinary freight under 
an exception to the hazardous materials regulations.
    Fire destroyed freight in a cargo container that was being 
loaded onto a cargo-only aircraft in Memphis, Tennessee. The 
fire originated in a box that had two rechargeable lithium 
battery modules that were components for a battery pack for a 
electric car.
    And after an in-flight cargo fire, an aircraft made an 
emergency landing at Philadelphia International Airport. The 
aircraft and most of the cargo were destroyed. Although the 
cause of the fire ultimately could not be determined, the 
prevalence of electronic equipment in that cargo compartment, 
where the fire most likely originated, caused us to look 
closely and examine safety issues involving the transport of 
rechargeable lithium batteries on commercial aircraft.
    The NTSB has recommended action to improve the reporting 
and analysis of incidents; to eliminate exceptions for 
packaging, marking, and labeling of lithium battery shipments; 
to stow shipments where they are accessible to flight crews; to 
use fire-resistant containers; and to provide guidance and 
information to the traveling public and flight crews about the 
safe carriage of lithium batteries and electronic devices 
aboard aircraft.
    Madam Chairman, this concludes my testimony, and I would be 
happy to answer any questions.
    Ms. Brown of Florida. Thank you.
    I guess I will start with the Secretary.
    Getting an accurate number of wetline-related deaths is 
very important to the Committee and the discussion, and there 
has been some confusion. Can you tell us me how many people--
fatalities have occurred in the last 10 years? I know this is 
going to be very difficult, but how many can we attribute to 
the wetlines? In one case, someone was drinking and ran into 
the truck. So do you have a description of what actually caused 
the accident?
    Mr. Porcari. Madam Chair, I can describe from our data the 
consequences of the accident. That is, whether our data shows 
the release of material from the wetline directly resulted in a 
death.
    Based on that 10-year review of 6,800 incidents, of which 
there were where 184 wetlines were determined to be damaged or 
ruptured, we have confirmed that 6 fatalities resulted directly 
from the wetlines release, rather than some other event, and 7 
injuries as well.
    There are additional deaths and injuries beyond that, but 
at this point, based on the data that we have, we cannot 
directly attribute it one way or the other.
    I would also point out that there may be a degree of 
underreporting of incidents. In an earlier analysis that we did 
of wetline incidents, we estimated that 24 percent of wetline 
incidents were not reported.
    Ms. Brown of Florida. Can you expound on that a little bit? 
Because when you say "unreported", if it is an incident wherein 
it is a fire in the community or it is an explosion, that is 
going to be in the paper. That is a reportable incident.
    Mr. Porcari. Yes, ma'am.
    We have tried hard to capture accurate data for this. If 
there is a report from first responders or a media report, we 
have tried to capture that in our data. If it was a less 
serious event or even a serious event that for some reason did 
not get reported, we cannot be sure we have captured that in 
our data, and that estimated 24 percent underreporting was from 
the last rulemaking process related to wetlines.
    Ms. Brown of Florida. Well, there is lots of description as 
to whether it is a new truck or whether we are retrofitting a 
truck as far as cost is concerned, and I am very interested in 
figuring out how you are figuring out what is the cost. Because 
I have gotten from $8,000 to $3,000 to as cheap as $1,500.
    Mr. Porcari. It is an important variable, obviously, in the 
cost-benefit equation. We are aware of one company currently 
that is selling wetline purging systems, both manual and 
automatic ones. The basic equipment for the non-welded manual 
purging system, we are told, is $2,300, with an estimated $600 
additional to install it, to retrofit it.
    The manual purging system on a new cargo tank would be an 
estimated $2,300, and the cost to retrofit an existing cargo 
tank would be $2,900. The non-welded automated purging system 
is $3,800, again with an additional $600 beyond that in cost 
for installation.
    That is based on what we know right now. Part of the 
rulemaking process is to gather current and accurate data 
regarding the costs.
    Ms. Brown of Florida. I am going to let other Members ask 
questions, but I have a real concern that it is only one 
company providing that service, so that cost can be a variable. 
I was told that there is about, I guess, four or five patents 
pending. Now I don't know exactly what that means, because 
patent doesn't mean that you are going to actually get the 
exact thing that we are talking about.
    Mr. Porcari. That is correct, Madam Chair. We have been 
told as well there are patents pending under the systems. The 
numbers that I gave you are based on the one company that we 
know of that currently manufactures and sells the wetlines 
purging systems.
    Ms. Brown of Florida. I am not going to speak for them, 
because they are going to be on another panel, but their prices 
were different from the ones you just said, also.
    Mr. Shuster.
    Mr. Shuster. Mr. Chipkevich, when the NTSB goes through a 
decision to make a recommendation on banning--when you make the 
recommendation on banning the carriage of gasoline in wetlines, 
do you consider the fatalities that occurred in the process of 
retrofitting trucks with the different systems?
    Mr. Chipkevich. We certainly look at the seriousness of the 
accident and the consequences of the accident. What we do is 
identify any safety issue that is involved and then look at if 
there are ways to prevent similar type accidents or similar 
types of severe consequences from occurring in an accident. So 
what we do is to look at an actual safety issue and whether 
there is something that can be done to address that issue.
    Mr. Shuster. Well, so then I understand in the last 10 
years there were 20 shop workers, folks who retrofit these 
vehicles have been killed in their retrofitting process. I am 
not sure I understand it. Do you consider that at all in your 
rule making or when you make your recommendation or is that 
something that falls outside of the NTSB's----
    Mr. Chipkevich. We have not looked at that particular area, 
but we have made recommendations in the past on the repair of 
cargo tanks. Shop facilities have to meet certain safety 
requirements, and the persons doing the repairs have to meet 
those safety requirements; there are procedures that are set 
up. We did check with the cargo tank company, Sunoco, who did 
install the equipment and are aware of any injuries during the 
installation of that equipment.
    Mr. Shuster. Well, that is a great concern of mine. We are 
looking and saying that there were 6 fatalities that we know of 
for sure and maybe several more--I forget what the number were 
in injuries, 13, I guess it was.
    When you look, nobody is looking at the situation, when 
there is a retrofit, 20 people have died. I have heard that 
people say they were in violation of OSHA. And I have heard 
other stories that the company wasn't necessarily violating 
OSHA law. It was the employee doing the work that decided they 
were going to do something they shouldn't have been doing.
    And so here we have a situation where we are saying we are 
going to stop these wetlines from causing injuries and 
fatalities. Yet we may create more deaths and injuries in the 
process of switching them over; and somebody has to step back 
and say, we need to take a look at that.
    Mr. Secretary, I mean, what are your thoughts on that?
    Mr. Porcari. Well, first, I am not aware of any deaths 
resulting from welding, for example, of wetline retrofits. We 
would be very interested in any data that is out there. It is 
something that we would look at very carefully.
    Mr. Shuster. Again, that is why I am so concerned about 
going forward with this mark-up tomorrow with this piece in 
there, because that is the facts that have been presented over 
and over to us again, that we are going to save 6 lives and 
maybe give up 20 lives in the process. That doesn't seem like 
that is something we want to do.
    And, again, the chairman of the Full Committee points out 
that those folks were in violation of OSHA, but it is an 
individual that is not following--just like with some of these 
wetline incidents, I think the chairwoman asked the question, 
what was the cause of the accident? We know that the wetlines 
may have 30 or 20 gallons, caught fire. Someone was killed or 
injured. What was the reason for it?
    And I have seen in a couple instances where people were on 
their cell phones, there was drunk driving, or they were 
running stop signs. So once again we come back to the 
individual. The individual is not following the letter of the 
law and is not complying with the law. And so they do something 
stupid or make a mistake and an accident occurs and what we 
have is a death or fatality.
    So, again, I would urge both of you to consider that other 
side of the equation as we move forward on this. Because I am 
afraid we will create more deaths and more fatalities when we 
think we are going to solve a solution. And, again, do you have 
any thoughts on that? If the evidence is clear, you know, we 
save 6 people, but we are going to give up 20 lives, does that 
come into the equation anywhere in any of your thoughts on 
this?
    Mr. Porcari. Again, that is something we would carefully 
consider in the rulemaking process.
    Mr. Chipkevich. I would like to note that certainly 20 
years ago DOT asked the industry to look at developing 
technology to address the wetline issue and had plenty of 
opportunity to develop technology to address it. The technology 
that is being used today, manufacture is yet improving the 
technology, has demonstrated that there is another means to 
install the equipment where you don't have to weld on the cargo 
tanks or the wetlines. In fact, you would have to drill a hole 
and tap a fitting into part of the internal valve at the bottom 
of the cargo tank where you would eliminate the welding hazard.
    Mr. Shuster. I see my time has expired.
    Ms. Brown of Florida. We will have another round.
    I just have a question for you. I mean, only recently--I am 
learning a lot more than I knew a couple of days ago--that you 
were able to unload it on the top, but because of the 
regulation that we passed with EPA now you have to--you can't 
do that anymore, so that is why they went to doing the fueling 
underneath. Is that correct?
    Mr. Chipkevich. Yes, ma'am. About 30 years ago, the Clean 
Air Act was passed; and our carriers were required to capture 
the hydrocarbon vapors being released. Industry could have 
developed a system to capture those vapors on the top and, in 
fact actually chose to look at bottom loading. Part of their 
reasoning was because of injuries, workers falling off the top 
of the tank on and things of this nature.
    Ms. Brown of Florida. That was a good reason, though, don't 
you think?
    Mr. Chipkevich. I think by using the bottom loading method, 
they have created another hazard. We had bottom loading lines 
that had shear sections that were designed to break away rather 
than to pull a big hole in the bottom of the tank. Added to 
that is the vulnerability of that location for being struck by 
other automobiles. So what that did was create another hazard.
    Ms. Brown of Florida. Yeah, but, you know, I am not--we are 
going to have other testimony, but, depending on the condition 
of the weather, if they have to go up there, if it is snowing 
or if it is raining--I mean, those are all factors that you 
have to consider.
    Mr. Chipkevich. You are correct. But, also, if the choice 
was to use bottom loading, we believe that the industry should 
also identify a means to empty those loading lines once they 
finished filling the cargo tank..
    Ms. Brown of Florida. I am not disagreeing with you, but 
the point is, if you can't show that this is real hazardous as 
far as the volume that they carry and the number of accidents, 
then perhaps they chose a system that is not as safe in 
comparison to not being safe.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair.
    In response to Deputy Secretary Poracri's statement about 
getting information and input, have any of the agencies such as 
the Fire Department, highway patrol, law enforcement been asked 
to report any of the information they may have when they 
respond to these accidents?
    Mr. Porcari. Ma'am, part of the data that we gather is 
those kinds of reports; and we try to do the best job we can. 
We do think that there is a possibility of underreporting based 
on what we have seen previously.
    Mrs. Napolitano. Underreporting in what areas, sir?
    Mr. Porcari. The incidents may be underreported because the 
agency didn't report it to us, the companies may not have 
reported incidents or, in cases where it might otherwise have 
been in the media, there wasn't a media report that we would 
have picked up. So any of those.
    Mrs. Napolitano. Isn't law enforcement requiring a 
reporting of accidents?
    Mr. Porcari. Yes, law enforcement is and industry is as 
well. And, again, I think, based on what we saw in the prior 
rulemaking process, there is a likelihood of underreporting.
    Mrs. Napolitano. On the issue of lithium batteries, the 
question comes of passenger aircraft. Are they allowed on 
passenger aircraft or is it just on cargo?
    Mr. Porcari. Metal or primary lithium batteries are not 
permitted in the cargo areas of passenger aircraft, the belly 
cargo, in other words, of passenger aircraft. They are 
permitted on all-cargo aircraft. Cargo only.
    Mrs. Napolitano. Reading some of the information, there has 
not yet been developed a container that would secure these 
batteries, am I correct?
    Mr. Porcari. That is correct, from what we know today; and 
the proposed rulemaking would have stowage requirements as a 
consequence. If there isn't either automatic fire protection or 
a container system that would contain the fire, the crew-
accessible stowage in that proposed rulemaking would actually 
provide an opportunity to access the fire.
    Mrs. Napolitano. Would this also require the training of 
the personnel handling not only the loading personnel but also 
the flying personnel or the off-loading personnel?
    Mr. Porcari. Well, I think in every case there are training 
needs. The flight crews should actually have some training as 
part of their background in that. But, clearly, this is a very 
difficult fire, a metal, lithium battery, if there is one; and 
what the proposed rulemaking does is provide at least an 
opportunity, if the crew can get to it, to try and deal with 
it.
    Mrs. Napolitano. Based on transportation--and I worked in 
transportation for a while--as soon as the cargo is receded by 
the airline, it becomes the responsibility of the airline for 
its safety, so that the airline then would then have to ensure 
that it is handled properly. Does that not require training for 
their personnel to ensure that the liability isn't there for 
any damage, any death, any injuries?
    Mr. Porcari. Yes, it does require training, and it also 
requires identification, knowing what the cargo is, so that you 
can respond to it properly.
    Mrs. Napolitano. Would that bill of lading be able to 
determine whether or not that particular plane would be able to 
carry that cargo? In other words, how are you limiting this so 
that it is for certain that cargo is not being placed in a 
place where it is not suitable?
    Mr. Porcari. Well, first and foremost, the proposed 
rulemaking would have labeling requirements so that you would 
first know what you have. In other words, that this is a 
lithium battery that would be required to be placed where it is 
crew accessible. Then, on the training side, you would have to 
make sure that you are stowing it correctly so that it is, in 
fact, crew accessible during flight.
    Mrs. Napolitano. To Mr. Chipkevich, apparently, a witness 
will later state that the alternative purging of the wetlines 
is to encapsulate the wetline and still keep the liquids in the 
line. The system would trap the liquid in the line, prevent it 
from spilling out of the shear section in the accident--in an 
accident. In the ones that you investigated, did any of them, 
or how many of them, or did most of them involve a spill from 
the actual shear section or they involve a rupture or puncture?
    Mr. Chipkevich. The accidents we have investigated have 
involved a ruptured pipe. These accidents, did not involve the 
braking away of the shear section. In order to break away the 
shear section, you have to have the force just exactly right. 
It is designed so that it doesn't pull a hole in the bottom of 
the tank with that valve. In the accidents we have 
investigated, the piping actually broke. For example, in the 
last accident we investigated, it broke about 6 feet away from 
the valve. It was an 18-foot pipe, so that type of a system 
would not have worked to contain the product.
    Mrs. Napolitano. In other words, what is being currently, I 
would say, touted as a preventable shearing--we look at two 
types of shearing areas. That does not ensure that it is going 
to break there. So it could be other structural damage in the 
rest of the infrastructure.
    Mr. Chipkevich. That is correct.
    Ms. Brown of Florida. We are going to have another round.
    Mrs. Napolitano. Okay.
    Ms. Brown of Florida. I am going to yield to Mr. Petri.
    Mr. Secretary, I want to emphasize this is very disturbing 
to me, that we keep mentioning about the underreporting. And I 
know that you have only been Secretary for a few months, but 
perhaps the best thing to do is to do a study and get an 
independent someone to verify. If we don't--if we can't 
accurately say how many accidents, what caused it, and maybe we 
need an independent agency if the Department can't do it.
    Mr. Porcari. Well, Madam Chair, if the information is out 
there, we think we can capture that information. If it isn't 
getting reported for various reasons, I am not sure anybody, 
independent agency or outside organization, would get it as 
well. We would like to and are continuing to make every effort 
to get good data. But, based on what we have seen in the past, 
we think that it is likely that there is underreporting.
    Ms. Brown of Florida. Based on what?
    Mr. Porcari. Based on the previous rulemaking. That is 
where the 24 percent number came from.
    Ms. Brown of Florida. We will talk about it.
    Mr. Petri.
    Mr. Petri. Thank you very much.
    There is a lot of things I would like to ask about, but let 
me just explore one particular area with you. In either 
legislation or rule making, is it preferable to define a 
standard other kind of objective or is does it make more sense 
to tell people how they should reach a particular thing to be 
in compliance? Especially if, when you tell them how to do it, 
someone has a patent on it and you give them a competitive 
advantage.
    Mr. Porcari. Sir, what we try to do----
    Mr. Petri. If you are requiring that people buy something 
from someone, that is not very good public policy, I wouldn't 
think.
    Mr. Porcari. That is certainly not our intention. What we 
would try to do, sir, is to define a performance standard, and 
let, in this case the industry, meet that standard. However, 
any system that is effective in meeting that standard would 
work.
    Mr. Petri. You think it is best to set a standard or give 
the Secretary the authority to review different approaches to 
that, that meet that standard, if someone has a bright idea. I 
mean, obviously just because they assert it meets some 
objective doesn't mean it does. Someone has to be a referee in 
all of this. But we should not be too prescriptive because we 
could cut off better ideas or cheaper ideas that achieve the 
same goal or whatever.
    Mr. Porcari. That is correct. Generally we want to set the 
standard and any technology or system that meets that standard 
will work.
    Mr. Petri. One other area, there will be some testimony 
later, when we get into the wet lines, as to the scope of any 
law or rule, and there is a difference between 406 and 407 
trucks, have you had a chance to review testimony of Mr. Cannon 
or any of the others? Evidently, the accidents have actually 
occurred on the 406 trucks which have a longer wet line and in 
the 407 it is a very small thing. I mean, would that difference 
between something like 30 or 15 gallons and 1 gallon of fluid 
enter into the cost-effectiveness of a rule?
    Mr. Porcari. I have not had a chance to review that 
testimony. I look forward to it.
    Ms. Brown of Florida. Mr. Walz.
    Mr. Walz. Thank you, Madam Chairwoman. Thank you both for 
your service and for being here today.
    Mr. Chipkevich, there is a couple of things here I wanted 
to note in your testimony, about a June 7, 2006, withdrawal 
notice from PHMSA that stated further regulation--this is 
dealing with the wet lines issue--further regulation would not 
produce the level of benefits originally expected and that the 
quantifiable benefits and proposed regulatory approaches would 
not justify the corresponding costs.
    Then you followed up on July 31, 2007, where PHMSA advised 
NTSB that they would work on a best-practice outreach to try 
and do the best possible. What was the outcome of that? What 
was the outcome of that determination and what changed from 
2006 to 2009 that said, yes, we have an issue here but it can 
be addressed working with industry on best practices to reduce 
to as small a point possible? If you could elaborate on that I 
would appreciate it.
    Mr. Chipkevich. Yes, sir. RSPA or PHMSA had advised us that 
rather than move forward with requiring wet lines to be 
drained, they would work with industry on educating emergency 
responders about being careful at accident sites and taking 
certain precautions. It didn't have anything to do with 
emptying the wet lines or making sure the wet lines were 
protected. So, it was a matter of post-accident responding 
rather than addressing the safety issue, and that is why we 
felt that they didn't actually address the issue that needed to 
be dealt with.
    Mr. Walz. Okay. On this issue, on the wet lines again, 
again I am coming back to, is the purging the only possible 
thing here? Why can't this stuff be flushed back at the point 
of loading? Is there any way you can do that at the loading 
terminals?
    Mr. Chipkevich. Certainly there are different means that 
they can look at. Industry has explained that once product is 
loaded, the remaining product in the lines, goes through a 
meter for taxing purposes. This process creates the problem of 
draining the product back out of the lines.
    The second point is, that there are different grades of 
gasoline that may be transported on a cargo tank. There are 
four or five compartments on a cargo tank and, therefore, there 
are issues if you try to drain it back out, possible 
contamination from previous loads, and things of this nature 
that present a new problem.
    Mr. Walz. So the folks at the terminal, because of the tax 
issue on what has already been metered, don't want it back?
    Mr. Chipkevich. That is part of it, yes.
    Mr. Walz. Even though my guess is, am I speculating too 
much here, that is the most cost-effective manner to do this?
    Mr. Chipkevich. I don't know the answer to that.
    Mr. Walz. I don't want you to speculate. I am just trying 
to get a grasp on this here that I think we are trying to reach 
a compromise on this. I don't think we doubt the numbers that 
are coming out here.
    I am sure not going to minimize one fatality in this. When 
we say there were six, there were six families that lost family 
members, and that is important. But this cost-benefit analysis 
has to come into this, and that is what I am really trying to 
get a grasp on.
    If these are hazardous to a certain degree, how best do we 
address that? So that is what I still keep coming back to. I 
think the question on this that is somewhat challenging for 
many of us is, is this the best technology that is available 
out there. All of a sudden if we warrant this or legislate 
this, what is that going to impact these producers.
    That is why I am really interested in the feedback. Maybe I 
should dig up or have the staff dig up some of this testimony 
from this best practices exercise that went out there. That 
might be valuable if it is around. You have seen some of it; 
correct?
    Mr. Chipkevich. Yes, sir. We could certainly provide the 
Committee the information that was given to us on the best 
practices.
    Mr. Walz. I would appreciate that if you would. I yield 
back.
    Ms. Brown of Florida. Thank you. Mr. Latta.
    Mr. Latta. Thank you, Madam Chair.
    Mr. Secretary, has the FAA or FAA certified halon fire 
suppression equipment to extinguish or contain fires caused by 
lithium batteries? If not, doesn't this legislation mean that 
passenger airlines can no longer carry shipments of lithium 
batteries?
    Mr. Porcari. My understanding is, and I will get a kick in 
the back if I am wrong here, that the halon systems, fire 
suppression systems, are effective in putting out lithium 
battery fires for lithium ion batteries but not metal lithium 
batteries.
    Mr. Latta. Okay. If this lithium battery regulation would 
become law, doesn't it mean that the United States lithium 
battery regulations won't be in harmony anymore with the 
International Civil Aviation Organization standards?
    Mr. Porcari. It means at least for the time being, that our 
regulations would be more strict than ICAO. There are other 
examples where we have done that as well.
    Mr. Latta. Let me ask this then in a follow-up. If the U.S. 
does adopt those regulations that wouldn't be consistent with 
the internationalregulations, wouldn't that in turn drive jobs 
from the United States because the shipments would be flown to 
either Canada or Mexico and then have to be shipped in from 
those points, costing U.S. jobs and then also driving up costs 
to consumers?
    Mr. Porcari. Typically shippers are looking for a logistic 
solution that is as simple and as cost-effective as possible. I 
would think it would be much more expensive to transship from 
aircraft in a foreign country to, for example, truck or rail 
and then ship into the United States.
    It is, I think intuitively, not likely that that would be a 
viable alternative.
    Mr. Latta. Okay. If you say it is not a viable alternative, 
how are they going to ship if, under international, the ICAO 
has one regulation, we have another, wouldn't a company which 
shipped to a country that would be under the international 
regulation, not the U.S.?
    Mr. Porcari. I believe there are other examples out there, 
actually, where U.S. leadership in ICAO regulations has raised 
the bar, as it were, for safety. The labeling and stowage 
requirements in the notice of proposed rulemaking are something 
that we believe that airlines can comply with and logistics 
companies can comply with.
    Mr. Latta. We were given a letter today that stated that 
the hearing or a meeting that was held in Montreal last month, 
under the ICAO Dangerous Goods Panel, reconsidered those 
regulations, made a few revisions that explicitly rejected--
requested substantial revising.
    At this juncture then the United States would have a much 
stricter regulation out there that would require a lot of these 
flights then to be rerouted from the U.S. to either Canada or 
Mexico.
    Mr. Porcari. Yes. Should the rule take effect, that would 
be the case.
    Mr. Latta. No further questions. I yield back.
    Ms. Brown of Florida. Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Mr. Chipkevich, you had indicated two options that would 
meet the performance standard from PHMSA's 2004 notice of 
proposed rulemaking regarding the elimination of flammable 
fluids from wet lines, the use of external purging systems or 
the replacement of an existing external piping with shortened 
or recessed piping.
    Are both methods equally effective, and what is the cost of 
implementing each?
    Mr. Chipkevich. It depends on the type of equipment. As we 
saw today the gasoline tank trucks, for example, the MC-306 and 
406 cargo tanks, some of the pipes on that equipment are as 
much as 18 feet long. So they carry a lot of gasoline and a lot 
of vulnerability to being hit.
    Besides, it was an MC-407 cargo tank, which had a very 
short 1-foot piece at the end of it which could also be used 
for different products. DOT currently allows in the regulations 
an exception, if the cargo tank has substantial protection at 
the back, for a product such as liquid poisons, corrosives and 
products of that nature that can be in a pipe that has that 
very little amount at the end.
    Certainly, if you had that type of situation with the 
gasoline tank truck it would be different. When you have 
something of that nature, certainly, there is a lot of 
substantial protection at the end of the tanker, and also there 
is an opportunity to be able to drain a small amount as opposed 
to as much as 18 gallons from a large gasoline-type piping. So 
there is a big difference in the design of that tank and the 
piping and hanging below the tank that is vulnerable, that was 
the issue we were trying to discuss.
    Mr. Cummings. Do you have any idea what the cost might be?
    Mr. Chipkevich. I think it is probably something that----
    Mr. Cummings. It shouldn't. I think Secretary Porcari gave 
us an idea of what the other method would be.
    Mr. Chipkevich. No. While it may be impractical for the 
typical gasoline tank truck, it might be practical for some 
other flammable liquids that would be transported in a 407-type 
tank truck.
    Mr. Cummings. You can see what we are struggling with, and 
I am sure you are struggling with it too, just listening here. 
All of us are very concerned about the safety but we are also 
trying to go figure out, just strike that balance. I think Ms. 
Edwards also mentioned that.
    So what we then do is we look at what the American Trucking 
Association says, right, because they are trying to strike that 
balance, too, and they say that the risk of a fatal wet line 
incident is approximately one in 30 million, one in 30 million, 
which they said is less than a person's risk of being struck by 
lightning.
    I am just wondering, has the NTSB examined the extent of 
the risk of involving a fatal wet line incident or in a wet 
line incident causing a fire, and what is your comment on the 
American Trucking Association's viewpoint on that?
    You know, one in 30 million is quite a bit, and I would--by 
the way, if we are going to err, I would rather err on the side 
of safety. But I am just curious when we look at cost-benefit 
analysis and all of that, what are we looking at?
    Mr. Chipkevich. Well, certainly, we look at the safety 
issue. We look at a safety situation that has been created that 
can be fixed. In fact, the solution is there. That risk can be 
taken away. Any time you have an accident with a highway cargo 
tank, in particular the flammable liquid MC-306 and 406 cargo 
tanks, you really increase the seriousness of the accident by 
having that exposure.
    We looked at it from the standpoint of a safety issue. 
There is a solution to fixing that problem that would 
significantly reduce the consequences of an accident and the 
seriousness of an accident. In these cases, we had individuals 
in automobiles that had struck the cargo tanks; they were 
trapped underneath when the fire started. There could certainly 
be more serious accidents involving vehicles with more 
passengers aboard or in other circumstances where the accident 
gets out of control.
    So we believe it is a safety issue that needs to be 
addressed and we think there is a solution there that can be 
applied to remedy the situation.
    Mr. Cummings. Just real quick, Secretary Porcari, I take it 
you all want to see this resolved as soon as possible; is that 
right?
    Mr. Porcari. Yes, sir.
    Mr. Cummings. You know that the normal thing is you hear 
people say wait, wait, wait. What would be the disadvantage of 
waiting, studying it, making sure we have the technology or 
what have you? I am not promoting that, I am just asking 
because you know that is the normal response in Washington, the 
hold up.
    So what would be the problem with doing that?
    Mr. Porcari. Well, first, Congressman, I would point out 
that this has been studied before, this issue has been through 
extensive review. There is an opportunity cost on any safety 
issue in waiting. I think you put your finger on the key term 
here, balance. That is really what we do through the regulatory 
process, try to balance cost-effectiveness with safety.
    I would also point out it is not just a cost-effectiveness 
issue, consequence matters; in other words, how severe the 
accident potential is if it happens is something that is not 
strictly in the numbers but very important in the 
decisionmaking process.
    Mr. Cummings. Thank you, Madam Chair.
    Ms. Brown of Florida. Ms. Edwards.
    Ms. Edwards. Thank you, Madam Chairwoman, and thank you to 
our witnesses. I have a couple of questions.
    One, Deputy Secretary Porcari, I keep reading and rereading 
the legislation where lithium batteries are concerned, and I 
can't really see the inconsistency between what we have created 
legislatively and what you are doing now in engaging a 
rulemaking process. What wasn't clear to me in your testimony 
is the Department, the administration's position on the 
legislation.
    Mr. Porcari. An excellent question, ma'am. From what we 
have seen of the legislation it is not inconsistent with what 
we are doing. I would point out that the rulemaking process is 
often long and with an uncertain outcome, but the proposal in 
H.R. 4016 is not inconsistent with the rulemaking process.
    Ms. Edwards. I appreciate your clarifying that because also 
in the provisions related to lithium batteries it says that 
within 24 months the Department is to come up with those 
regulations, with the rulemaking, and I think that that leaves, 
that is 2 years. That leaves a lot of time for the rulemaking 
process if this were to take effect today.
    The requirements in there are guidelines for the Department 
in terms of doing its rulemaking.
    Thank you very much for that clarification.
    I also want to ask both of you about, you know, about this 
question of whether the industry is actually mandated. When I 
read the section related to external product piping on cargo 
tanks and transporting flammable liquids, I read under section 
A, number 2 that the prohibition for existing cargo tank motor 
vehicles says that no person may offer for transportation or 
transport a Class 3 flammable liquid in the external product 
piping of a cargo tank motor vehicle on or before December 31, 
2020.
    Part of what that is saying to me is that in fact the 
legislation isn't requiring a particular technology, it is 
merely saying that the industry would participate in deciding 
how to meet a standard.
    Is that your understanding?
    Mr. Chipkevich. Yes, ma'am.
    Ms. Edwards. Thank you. Then, I want to go back to the 
question of the lithium batteries, because having had a laptop 
in my living room on a chair that self-ignited and wasn't 
plugged in, I know that these things can happen. So I am my own 
focus group.
    I am wondering, though, in the legislation that we have 
envisioned, how we also get to a place where the crew and where 
the cargo itself is able to be extinguished. So this question 
of accessibility is really important because my own personal 
experience is that when that happens, this was a laptop that 
wasn't in fact plugged in, that when that happens you have got 
to deal with it really quickly or you have got a mess on your 
hands.
    Mr. Porcari. That is absolutely true. What the proposed 
rulemaking would do with the stowage requirements is at least 
give the crew a fighting chance, as it were, to evaluate what 
is going on and land as quickly as possible. They can't run 
this product outside and set it down.
    Ms. Edwards. Lastly, Mr. Chipkevich.
    Mr. Chipkevich. I might add, NTSB had made the 
recommendation to have lithium batteries in crew-accessible 
locationsuntil fire suppression systems are required on cargo 
aircraft. During our investigation of the lithium battery 
issue, we did take testimony from one of the air carriers, 
FedEx, who is working very aggressively to develop a fire 
suppression system for its cargo aircraft. One possible system 
would have equipment with a nozzle on board that could be 
directed exactly to a cargo container that is having a problem. 
Suspected smoke or fire could puncture that container, and 
therefore put a fire suppression system that sprayed water 
right into that container to address the issue.
    Air carriers and others have also been looking at some 
other types of fire suppression, such as putting fire resistant 
drapings and covers over containers to minimize fires. So we 
think the problem is being addressed, and we think that until 
they actually get there-- I think they are very close to 
implementation-- that the best alternative is to put the 
batteries in a location where they are accesible so that the 
crew can deal with the fire.
    One of the worst situations is a fire on an aircraft and 
the crew does not know about the fire. You need to be able to 
deal with the fire, which will give you some time to get the 
aircraft on the ground.
    Ms. Edwards. Or know what is in the containers and know 
what is in the shipping boxes or know where they are located in 
the aircraft, isn't that right?
    Mr. Chipkevich. Yes, ma'am.
    Ms. Edwards. Thank you very much. No further questions.
    Ms. Brown of Florida. I think that we are going to have 
another round quickly, and then we will go to the next panel.
    Mr. Secretary, I have some real concerns, and I am going to 
give you my concerns in writing. But can you tell me, first of 
all, Ms. Edwards asked the question whether or not we were 
mandating in the legislation exactly what system to use. But, 
in fact, it is only one system that is certified in the entire 
country; is that correct?
    Mr. Porcari. I believe that is correct right now.
    Ms. Brown of Florida. So even though there are, I think, 
about four or five patents, patents don't mean anything. 
Patents mean that you have got an application in and you don't 
even know whether your system is going to work; is that 
correct?
    Mr. Porcari. Yes, I believe those are patents pending.
    Ms. Brown of Florida. So let's be clear it is only one 
company that is manufacturing this system, and I guess my 
second question, and this is important to me, as we sit here 
today, the trucking industry is carrying how much every day, 
how many millions of gallons every day?
    Mr. Porcari. I don't know offhand, I am sorry. It is a lot.
    Ms. Brown of Florida. It is a lot, it is a lot. Basically 
it is a lot and basically the industry is safe. What they are 
telling me, and you can correct me, is that the major problem 
is not the one that we are discussing here today, the major 
problem is that these trucks tilt, you know, and then they may 
turn over. That is the major problem. Even if we fix the wet 
lines, if they had a serious accident it would explode.
    In addition to that, the second generation of these trucks 
that they are making now that is four, what, 25 years, they are 
built, that they are real sturdy, as opposed to when you were 
talking about 1985 when they were talking about the additional 
legislation, that these are a better generation of trucks.
    Clear that up for me, because I don't want to sound like I 
am speaking for the industry, but I have had to go back and 
read all of this information, I have got a chance to talk to 
some of the truckers, in the road, you know, while they were 
out there, not just the owners of the companies, it was just me 
and the truckers at the service station. No cameras.
    Mr. Porcari. Madam Chair, clearly there are a number of 
risks. The wetline risk that we are discussing today and 
addressing in a proposed rulemaking is only one of them. Safety 
means comprehensively addressing issues. You are hearing two of 
them today, one related to trucks. There are many more, and we 
are trying to move forward on a number of fronts 
simultaneously.
    Ms. Brown of Florida. Okay. On the battery, I just got one 
quick question. My understanding is that maybe the technology 
is not there for the system in the cargo area.
    Mr. Porcari. For the fire protection?
    Ms. Brown of Florida. Yes, for the fire protection.
    Mr. Porcari. That is correct.
    Ms. Brown of Florida. So what are we mandating?
    Mr. Porcari. What we are actually mandating is clear 
labeling of what the product is so that it is properly handled. 
Proper stowage, so that it is crew accessible in flight.
    Ms. Brown of Florida. Okay. What is going to happen in 
flight if they can't put it out?
    Mr. Porcari. Well, at a minimum this would give the crew an 
opportunity to recognize the danger, assess it, and land as 
quickly as possible.
    Ms. Brown of Florida. Did you want to talk to either one of 
those areas?
    Mr. Chipkevich. Certainly on the issue of accessibility, we 
believe that the testing at the FAA tech center did show that 
halon was effective on passenger planes in a cargo compartment 
in suppressing a fire. Halon fire suppression works on lithium 
ion batteries and the rechargeable batteries, but not on 
primary batteries. Therefore, because halon was not effective 
on primary battery fires and it was agreed that the primary 
batteries should not be in the cargo compartments on passenger 
aircraft.
    We believe certainly though that the way to move forward 
with the primary batteries is through the development of fire 
suppression systems that can in fact help to extinguish a fire 
with the primary batteries, the metal batteries. Until we can 
get it to that point, the batteries need to be identifiable and 
accessible to flight crews which can, in fact, give the crews 
some additional time to get the aircraft down.
    Ms. Brown of Florida. Mr. Shuster.
    Mr. Shuster. Thank you. Again, in this legislation that we 
are going to pass--and, again, I think it is pretty clear right 
now there is only one technology out there. What is the 
solution if we pass this and people are going to be forced to 
buy this one type of technology, what do we propose to do if 
that is the case?
    The Department of Transportation says stop, we can't do 
that? That is the whole concern of this. With the timeframe we 
have in place, is that technologies aren't going to be 
developed, people aren't going to have alternative choices 
there is going to be one system out there. What is the solution 
to that?
    Mr. Porcari. Well, by defining a performance standard, it 
does, at least over time, typically spur competition where you 
would have other systems. It would certainly be our hope that 
that would be the case here.
    Mr. Shuster. On DOT 407 tanks, I think we saw one today and 
that has, that has a little bit of gas, petroleum or product in 
there. Are those, they are not going to be exempted from this 
legislation. Is that something that you think should be 
exempted with that small amount of fuel in there?
    Mr. Chipkevich. I think that the current regulations don't 
identify by a specific tank truck but by product. If you have 
poison, if you have corrosives or some other hazardous liquid 
products, you have to provide either adequate protection that 
is going to protect the piping from a significant accident, or 
drain the line.
    If the legislation did say that flammable liquids, Class 3, 
that the lines had to be empty, then the issue would be that 
that particular piece would have to be emptied.
    Mr. Shuster. I come back to this point again, and I think 
that is my biggest problem with this legislation is that it is 
going to force something out there on the industry that by all 
accounts, and other folks have said it, this is a relative--
this is an extremely safe industry.
    We certainly would like to see it safer, but still nobody 
has said that they have taken into consideration the 20 
fatalities versus the 6 fatalities when you bring these trucks 
in to have them retrofitted. You are not just going to bring in 
the current levels, if this legislation becomes law, it is not 
going to be the same current levels of trucks coming in to be 
fixed and worked on and retrofitted. You are going to have 
every tanker in the industry over a 7 or 10-year period, 
100,000 or more are going to be coming into these shops. My 
concern is once again if you are welding on these things, your 
fatalities are going to be even greater.
    We are solving one problem and potentially causing an even 
greater problem, and it seems to me that the NTSB has not taken 
that into consideration, and I really believe that has to be 
part of it. That is one of the reasons that we go through a 
rulemaking process with PHMSA. Let them go through and 
determine what is going to be the best solution for safety as 
well as cost-benefit analysis.
    Again, I come back to that. Have you considered that? That 
100,000 tankers are greater than the total--I don't know what 
the total population is. Go ahead.
    Mr. Chipkevich. I think, certainly, there are very strong 
safety procedures that must be followed when you are doing work 
on tank trucks. We made recommendations in the past for special 
qualifications for personnel doing the work and that the tank 
shops meet certain qualifications, and I think that there are 
other solutions.
    NTSB doesn't say that you need to weld, that you have to 
weld. I think we would have the opportunity for innovation, as 
we saw today out at the facility, where there is other valves 
and other means of installing the safety equipment without 
having to do welding.
    My concern has been with the industry. This has been an 
issue for 20 years. The DOT has asked the industry to go out 
and develop the technology and to address it. There has been 
plenty of opportunity for the industry to do so, and I think 
there is still plenty of opportunity to improve and to develop 
technology in this area.
    Mr. Shuster. You come back to we go back to one supplier, 
if that is the solution. Again, you are not taking the whole 
picture into consideration, I believe, when you make these 
recommendations.
    Again, it comes down to if you had one system that doesn't 
weld but that that is the other system that is out there you 
have to weld. There are going to be deaths, there are going to 
be fatalities. Those are things that, once again, I think you 
have to take into consideration.
    You can say, you can train people and train people we heard 
today, but the accidents that happened at the shops, they were 
complying with OSHA but the worker decided he wasn't going to 
do--he did something he shouldn't have.
    Just like the person who is on the cell phone that runs 
into the wet lines. I guess we can't legislate to eliminate 
stupidity, because people are going to do stupid things, and 
that is why we get in many of these accidents. Again, I think 
we are going about this in a way that there will be more 
injuries, more fatalities, because of what this legislation is 
forcing us to do.
    Ms. Brown of Florida. I want to thank the panelists. Is 
there any Member that feels that they would like to ask another 
question, because I would like to move to the second panel.
    Mr. Walz. If I could make a comment.
    Ms. Brown of Florida. Yes, sir.
    Mr. Walz. I too many troubled by this. When I look at again 
the legislation, we are not necessarily mandating a technology, 
we are mandating a standard. I think the suggestion I said--and 
the Petroleum Institute folks would say this too--you can dump 
it back at the loading rack. That requires no fit, no anything.
    Is it possible we can improve safety and not add a burden 
or cost here? Is that the belief that you guys have? I think 
these are good questions, and both the chairwoman and the 
Ranking Memberbrought up concerns that all of us have expressed 
but I think there may be other options out there.
    Would either of you like to comment just quickly on that?
    Mr. Chipkevich. I think certainly there are ways to find to 
do it safely. We believe the wetlines certainly, because of the 
vulnerability, really present an additional risk and hazard 
that doesn't need to be there.
    Should the industry choose to empty those wet lines in a 
different manner, that would be perfectly fine. Purging it with 
either a system that we have seen or a system that is still in 
development certainly is how we think it should be 
accomplished.
    Mr. Walz. Thank you, Madam Chairwoman.
    Ms. Brown of Florida. Thank you all for your testimony.
    As I said, there may be some additional questions, and I 
think we are looking at trying to take this bill up on 
Thursday. So we will give you any additional questions that we 
may have between now and Thursday. Thank you very much for your 
testimony.
    Mr. Porcari. Thank you, Madam Chair.
    Mr. Chipkevich. Thank you.
    Ms. Brown of Florida. We are going to get back to it 
because we have one more panel. Then we want to open it up for 
some 1-minutes from people in the audience. I always like to 
have that as a part of the hearing so we can hear from people 
who are not on the agenda. We want to leave a little time for 
them.
    Panel II, Mr. Jim Casey, Vice President and the Deputy 
General Counsel for Air Transport Association of America; Mr. 
Mark Rogers, Director, Dangerous Goods Program, Air Line Pilots 
Association, International; Ms. Barbara Windsor, Hahn 
Transportation, New Market, Maryland, on behalf of the American 
Trucking Association; Mr. LaMont Byrd, Director of Safety and 
Health Department of International Brotherhood of Teamsters; 
Mr. John F. Cannon, Vice President - Sales & Marketing, Walker 
Group Holdings; and Mr. Ron Andenmatten, owner of Cargo Tank 
Concepts.
    Are you the one with the twin brother?
    Mr. Andenmatten. No, my brother is my co-owner with Cargo 
Tank Concepts.
    Ms. Brown of Florida. We are going to start with Mr. Casey.

   TESTIMONY OF JIM CASEY, VICE PRESIDENT AND DEPUTY GENERAL 
  COUNSEL, AIR TRANSPORT ASSOCIATION OF AMERICA; MARK ROGERS, 
DIRECTOR, DANGEROUS GOODS PROGRAM, AIR LINE PILOTS ASSOCIATION, 
   INTERNATIONAL; BARBARA WINDSOR, HAHN TRANSPORTATION, NEW 
     MARKET, MARYLAND, ON BEHALF OF THE AMERICAN TRUCKING 
    ASSOCIATION; LAMONT BYRD, DIRECTOR OF SAFETY AND HEALTH 
  DEPARTMENT, INTERNATIONAL BROTHERHOOD OF TEAMSTERS; JOHN F. 
   CANNON, VICE PRESIDENT - SALES & MARKETING, WALKER GROUP 
HOLDINGS; AND MR. RON ANDENMATTEN, OWNER, CARGO TANK CONCEPTS, 
                              LTD

    Mr. Casey. Thank you, Madam Chair. Good afternoon, I 
appreciate the opportunity to join you this afternoon.
    As the Chair said, I am Jim Casey, the Deputy General 
Counsel and Vice President for Industry Services at the Air 
Transport Association.
    ATA's members, which are the largest U.S. passenger and 
all-cargo airlines, strongly support efforts to assure the safe 
transportation of hazardous materials. As in other areas of 
civil aviation, success in these efforts depends on the 
collaborative work of government, labor, manufacturers, 
shippers, and airlines that are committed to a disciplined data 
driven approach. No one has a monopoly of knowledge in this 
area.
    We appreciate that the sponsors of H.R. 4016 want to 
improve the safety of the carriage aboard aircraft of lithium 
batteries and the electronic devices that use them. 
Legislation, however, is not the best way to pursue that goal. 
Instead, a notice and comment rulemaking proceeding is a far 
better means to examine facts, bring necessary expertise to 
bear, and develop whatever changes such an empirical focus 
shows are needed.
    The opportunity to do so is before us. A proposed lithium 
battery rule is under review, as you have heard earlier this 
afternoon, at the Office of Management and Budget.
    Shortly, therefore, all interested stakeholders should have 
the opportunity to contribute to an examination of the carriage 
aboard aircraft of lithium batteries. That is the way to 
proceed and will allow a timely exploration of the subject.
    We emphasize this point in our November 4 letter to 
Chairman Oberstar and Ranking Member Mica. In contrast, the 
legislation under consideration, which would not be enacted 
into law for some time and by its own terms, would not require 
a final rule until 2 years after its enactment but could have 
the unintended but very real consequence of interrupting the 
anticipated rulemaking proceeding.
    A rulemaking proceeding would enable the various interested 
parties to participate in assessing the need for and 
implications of additional regulatory requirements. Such wide-
ranging participation is essential. This is a complex area 
where the benefit of expertise and illuminating its different 
facets is a critical ingredient in the decisionmaking process.
    Safety is a dispositive consideration of any such 
undertaking. We nevertheless must recognize that government 
action in this area could have serious effects on airlines and 
the welfare of their employees, as well as on the 
manufacturers, shippers, and retailers that depend on air 
transportation. With respect to airlines, both passenger and 
cargo airlines transport devices containing lithium batteries.
    Moreover, because lithium batteries are indispensable to so 
much of what today we take for granted, those entities that are 
involved in the manufacturer, distribution, and sale of 
electronic devices have an unmistakable stake in the outcome in 
this legislation and any rulemaking procedure.
    This is not, therefore, an insular subject. Ill-conceived 
requirements could have serious adverse results throughout our 
economy.
    As we also noted in our November 4 letter, maximizing 
harmonization of any new U.S. requirements with International 
Civil Aviation Organization standards is an important concern 
for two reasons. First, most ATA members transport cargo 
internationally as well as domestically. Neither safety nor 
efficiency will be advanced if unnecessarily disparate HAZMAT 
requirements govern their operations.
    Second, we believe that the United States must maintain its 
leadership role in ICAO by advancing harmonized international 
standards. That role will not be advanced by a legislatively 
mandated unique U.S. rule, which we fear would signal to ICAO 
members that they should feel free to take the same approach. 
That would be a serious blow to what we believe should be a 
common goal of seamless requirements.
    Congress' interest in this important matter is very 
understandable. It is most helpful response, however, would be 
to urge the executive branch to accelerate the initiation of 
expected rulemaking proceeding rather than pursuing this 
legislation.
    Thank you for your attention.
    Ms. Brown of Florida. Thank you. Before Mr. Rogers begins, 
let me remind the witnesses that under our Committee rules oral 
statements must be limited to 5 minutes, but the entire 
statement will appear in the record.
    Mr. Rogers.
    Mr. Rogers. Thank you. Good afternoon, Chairwoman Brown, 
Ranking Member Shuster, Members of the Subcommittee and Member 
Edwards.
    I am Mark Rogers. I am an airline pilot and Director of the 
Dangerous Goods Program for the Air Line Pilots Association, 
International.
    ALPA represents nearly 53,000 pilots who fly for 36 
passenger and all-cargo airlines in the United States and 
Canada. On behalf of our members, I want to thank you for the 
opportunity to provide our perspective on the carriage of 
lithium batteries on airliners and specifically on H.R. 4016, 
the Hazardous Material Safety Transportation Act of 2009.
    ALPA strongly supports this legislation and believes that 
it will help enhance safety. If lithium batteries shipped 
aboard airliners are damaged, defective or improperly packaged, 
a fire may occur, leading to potentially catastrophic 
consequences.
    To mitigate this risk, it is necessary to remove the 
exceptions in place today and regulate lithium batteries as a 
hazardous material, including provisions for enhanced marking, 
labeling, testing and packaging requirements. It is also 
necessary to ensure that if a fire does occur, the results are 
not catastrophic.
    This is accomplished by restricting the loading of lithium 
batteries to cargo compartments equipped with a fire 
suppression system capable of extinguishing a lithium battery 
fire, or when this is not possible, by placing the batteries in 
the fire-resistant container or in locations accessible to the 
crew. To further reduce the possibility of an uncontrollable 
fire, the total quantity of lithium batteries at any one 
location on the airplane must also be restricted. This bill 
accomplishes each of those important goals.
    I would like to deviate from my prepared statement just a 
little bit to address some of the things I have heard this 
afternoon in the opening statements and what I have heard from 
a few other presenters, and just talk about this idea of crew 
accessibility and the fire suppression systems on aircraft.
    To talk first about the passenger airliners, the under 
floor cargo compartments have a halon suppression system that 
the FAA has shown through testing at the Atlantic City fire lab 
is capable of suppressing a lithium ion battery fire. So that 
would be all the batteries equipped in things like cell phones, 
laptops, everything like that. The halon suppression systems on 
those passenger aircraft are capable of suppressing that fire.
    They are not capable of suppressing a lithium metal battery 
fire. However, those lithium metal batteries are already 
prohibited on passenger aircraft. So for passenger aircraft 
there wouldn't be much of an impact on that particular portion 
of the regulation.
    On cargo aircraft, while they are not required, most cargo 
aircraft actually do have the halon suppression systems under 
floor, because these were originally passenger aircraft. Some 
carriers do remove them because they are not required, but most 
have them.
    The lithium ion batteries on the laptops, the cell phones 
on cargo airliners, if they were shipped under floor, would be 
capable of being extinguished by the halon suppression system. 
For those that don't have that system, you also have the main 
deck.
    Contrary to what I have heard in some of the statements, it 
is not just the forward position that can be accessible. 
Airlines throughout the world use the side of the aircraft to 
be accessible. So it wouldn't unnecessarily limit that. Also 
the NTSB has heard testimony, and the major cargo carrier in 
the United States, the one that transports the most cargo right 
now, just recently a few months ago, announced that they are 
going ahead with the installation of a cargo suppression system 
that is for the entire main deck and will puncture a cargo 
container and fill it with a foam that their testing has shown 
will put out either a lithium ion fire or a even lithium metal 
battery fire, which is something very new, and they are going 
ahead with that even though it is not required by regulation.
    So in any of those cases where none of that is possible, 
having crew accessibility is kind of the last line of defense 
to allow quick recognition of a fire and at least to have the 
crew to be able to do something about it by being able to 
access it and trying to put it out.
    In terms of there being no fire resistant containers in the 
market today, that is true. However, we just enacted 
legislation following the ValuJet accident 10 years ago for 
oxygen cylinders, and that mandates packing that can withstand 
a 1,700-degree fire for 5 minutes, which is the initial fire, 
and then 400 degrees for 3 hours, which is the diversion time 
with the halon suppression system in place.
    So the rulemaking came about that mandated that, and the 
industry responded and they are going to build these 
containers. I think the same thing could happen with lithium 
batteries. If we put the requirement in place, there will be a 
market to put these containers and you will be able to have 
some kind of metal packaging or do testing that would show 
maybe this would help reduce the risk of a fire. I think 
ultimately the answer is in the correct fire suppression on the 
aircraft, but there are other alternatives.
    To get back to what I had prepared then, thank you, and it 
is important to note that the total quantity of lithium 
batteries at a single location cannot be restricted if the 
batteries are not first treated as fully regulated hazardous 
materials. With the exceptions in place today packages 
containing lithium batteries are handled as general freight and 
are not subjected to the acceptance check and loading 
restrictions applicable to other hazardous materials.
    The flight crew is currently notified when thousands of 
batteries are loaded into an airliner cargo compartment, and as 
a result they are not able to pass that information on to 
emergency personnel responding to an incident.
    ALPA is very pleased this bill will align the regulations 
regarding lithium batteries with the risks they pose to 
transportation and restrict the quantity of batteries at any 
one location.
    We are also pleased that the bill addresses the issues of 
special permits and approvals. These regulations will help 
ensure that batteries are transported safely aboard airliners. 
Deviation from these requirements should only be granted when 
an equivalent level of safety is achieved, and those deviations 
are clearly in the public interest.
    At least 6 additional fires involving lithium batteries 
aboard aircraft were in packages prepared for transport----
    Ms. Brown of Florida. Mr. Rogers, are you almost finished?
    Mr. Rogers. I have just about a half page left.
    Ms. Brown of Florida. We are going to have questions and 
answers, and we will give you a chance to finish. Thank you.
    Mr. Rogers. Thank you.
    Ms. Brown of Florida. Ms. Windsor.
    Ms. Windsor. Thank you, Madam Chairwoman, Ranking Member 
Shuster, of course, from my home State of Maryland, Congressman 
Cummings and Congresswoman Edwards and Members of the 
Subcommittee. Thank you for having this opportunity to be with 
you.
    My name is Barbara Windsor, and I am President and CEO of 
Hahn Transportation, a trucking company headquartered here in 
New Market, Maryland. My company hauls petroleum products and 
other hazardous materials in bulk. My family built and grew 
this business over the past 75 years, and today we operate 100 
tank trucks and employ over 150 individuals.
    I appear before you representing not just my company, but 
also the American Trucking Association and the National Tank 
Truck Carriers. Today I will focus my remarks on the provisions 
of H.R. 4016 that would ban the transportation of flammable 
liquids and external product piping of cargo tanks, or called 
wet lines.
    We believe that the industry's safety record clearly 
demonstrates that a mandate for wet lines purging equipment is 
not justified. Earlier this year, the DOT examined the HAZMAT 
incidents database and reported that over the past 10 years 
there were six fatalities that were directly attributable to 
wet lines releases.
    By contrast, more than 50,000 cargo tank shipments of 
flammable liquids occur each day and over 180 million shipments 
have occurred over that same 10-year period. These government 
statistics indicate that the risk of the fatal wet lines 
incident is approximately one in 30 million.
    We recognize that the NTSB has recommended that wet lines 
be banned. However, the NTSB recommendations are based upon the 
review of only three wet lines incidents. The NTSB did not 
consider the infrequency of wet lines incidents, the risks to 
workers that would have installed the wet lines purging 
systems, nor the costs that are involved in the purging of the 
wet lines.
    In light of this, we recommend that Congress require the 
National Academy of Sciences to conduct an in-depth study of 
wet lines, the risks that they present, and the costs of 
addressing these risks, including the viability of having the 
shipper of the product purge the lines during the loading 
process rather than putting the purging system on each trailer.
    Having discussed a very mall risk associated with the wet 
lines, we now turn our attention to the cost of the wet lines 
purging system. Perhaps the greatest cost associated with the 
wet lines ban would be the additional lives lost as a result of 
retrofitting a large number of tank trucks.
    We are aware of the 20 fatalities that have resulted from 
welding operations performed on cargo tanks during the past 10 
years. We believe this number is significantly understated as 
it is based on the Internet news search that was unlikely to 
reveal all the cargo tank shop incidents. This rudimentary 
analysis makes it clear that the mandate to install wet lines 
purging systems will result in an overall increase of 
fatalities as even the best repair facilities have experienced 
these types of accidents.
    We also understand that the manufacturer of the only 
available wet lines purging system is working on a system that 
does not have to be welded. Unfortunately, this system would 
still require cutting metal and replacing cargo tank valves.
    Putting the human cost factor of retrofit aside, the 
capital costs associated with retrofitting a cargo tank is 
approximately $8,000 per tank. This figure does not include the 
costs associated with down time of the equipment during the 
retrofit process, the costs associated with the loss of 
productivity waiting for purging systems to operate on the 
ongoing maintenance of this system.
    The cost of retrofitting of my own fleet would exceed 
$800,000. This is an enormous expense for a family-owned 
business such as ours. Given my company's limited access to 
capital, the requirement of investment in purging systems would 
prevent me from deploying other proven safety technologies. By 
prohibiting the transportation of flammable liquids in the wet 
lines, H.R. 4016 prevents the development of alternatives to 
the purging system that could provide an adequate level of 
safety.
    A wet lines ban essentially requires the use of wet lines 
purging and prevents cargo tank manufacturers from pursuing 
alternatives such as under ride protection, modification to wet 
lines that could prevent releases from impact, or other 
measures to provide an adequate level of safety.
    We also believe that any potential wet lines ban should 
require petroleum terminals' loading racks to be retrofitted to 
assure that the product is removed during the loading process. 
It is much more cost-effective to retrofit a couple hundred 
petroleum terminals than to require tens of thousands of cargo 
tanks to be equipped with a purging system.
    ATA, NTTC, and Hahn Transportation appreciates this 
opportunity to offer our insight of these measures to improve 
the safe transportation of hazardous material. On May 14, ATA 
testified before the Subcommittee on six key issues for 
Congress to consider as it reauthorizes the Federal HAZMAT 
transportation law. In lieu of restating our prior testimony, I 
ask that the chairwoman incorporate ATA's prior testimony in 
the hearing record.
    Thank you very much. I look forward to answering any of 
your questions.
    Ms. Brown of Florida. Thank you.
    Mr. Byrd.
    Mr. Byrd. Good afternoon. My name is LaMont Byrd, and I am 
the Director of the Safety and Health Department at the 
International Brotherhood of Teamsters.
    I would like to thank Madam Chairwoman Brown, Ranking 
Member Shuster, Members of the Subcommittee, and Congresswoman 
Edwards for the opportunity to comment here today concerning 
H.R. 4016, reauthorization of the DOT's Hazardous Materials 
Safety Program.
    The Teamsters Union represents approximately 300,000 
workers in the United States who handle and transport HAZMAT or 
respond to accidents that may involve the release of hazardous 
materials. Today I will briefly comment on transporting lithium 
batteries on aircraft, external product piping, special 
permits, and OSHA jurisdiction. My written statement also 
includes our position regarding training for HAZMAT workers and 
emergency responders.
    The Teamsters Union represents approximately 2,550 cargo 
air pilots who are employed at 15 different cargo airlines. We 
are very concerned about transporting lithium batteries on 
aircraft, but we think that if precautions are taken such 
transport could be safely accomplished.
    The Teamsters Union agrees with the safety recommendations 
that the National Transportation Safety Board issued regarding 
this matter. We also strongly support the provisions in section 
201 of this legislation that encompasses those recommendations 
and further addresses the dangers associated with the transport 
of lithium batteries in aircraft.
    Limiting stowage of lithium batteries to crew-accessible 
locations is essential to protecting crew members from certain 
disasters should a fire occur on board the aircraft. With no 
way to access an area where an explosion and or fire could 
erupt, and no certainty that the crew could land the airplane 
quickly, we think that it is absolutely necessary that short of 
a fire suppression system or storage in fire-resistant 
containers lithium batteries be stored in crew-accessible 
locations. It is also important to establish load limits for 
batteries on board aircraft and ensure that batteries are 
properly labeled and packaged.
    Because of the competitive nature of the tank haul 
industry, the Teamsters Union initially had significant 
concerns about how some proposed changes in the legislation 
might affect the job security of our nearly 11,000 members who 
were employed in this industry.
    But we want to make it perfectly clear to every Member of 
this Subcommittee that we support the provisions outlined in 
section 202 of the bill. We firmly believe that the Committee 
has struck a fair balance between the safety of workers and the 
motoring public and costs to carriers. We agree that 
prohibiting the transport of Class 3 flammables and wet lines 
on vehicles manufactured 2 years after the enactment of the 
legislation and giving the industry 10 years to bring existing 
vehicles into compliance will be both protective to workers and 
achievable by industry.
    With respect to the concerns expressed for the safety of 
workers who perform jobs to retrofit vehicles, we support the 
worker safety provisions in this legislation that require a 
review and appropriate update of existing worker safety 
standards by the Department of Transportation and the Labor 
Department.
    With respect to special permits, the Teamsters Union has 
always been concerned about the issuance of special permits, 
especially relating to the transport of HAZMAT. In many cases, 
special permits are routinely renewed or modified without 
adequate review. In some cases these permits have been granted 
to umbrella groups for an entire specialized industry without 
examination of the specific carriers involved.
    It is only common sense that the safety history of a 
carrier be examined and a determination made that they meet the 
safety standards necessary to qualify to receive a new permit 
or have an existing permit renewed or modified. Therefore, we 
strongly support the provisions contained in section 401 of the 
legislation.
    The Teamsters Union is aware of ongoing efforts to 
eliminate OSHA's authority to protect workers who load, unload, 
and handle HAZMAT. This is a critical issue for the Teamsters, 
and we recommend that any such attempts by industry during this 
reauthorization period be rejected. Based on our experience 
working with OSHA on HAZMAT transportation issues, it is our 
opinion that the agency has the experience, commitment, and 
track record to effectively protect transportation HAZMAT 
workers.
    The Teamsters Union commends the Committee for having 
concern about the safety and security of the traveling public 
and HAZMAT workers. As the amount of HAZMAT being transported 
on our Nation's supply chain increases, so does the risk to our 
safety and security.
    Enhancing the Federal HAZMAT laws and reauthorizing the 
Federal safety HAZMAT program are important steps that this 
Congress can take to protect HAZMAT workers and the general 
public. We look forward to working with you on this important 
endeavor.
    I am available to answer any questions that you may have. 
Thank you.
    Ms. Brown of Florida. Mr. Cannon. Thank you.
    Mr. Cannon. Madam Chairwoman, Ranking Member Shuster, 
Members of the Subcommittee, I thank you for the opportunity to 
testify before you on the important subject of wet lines.
    My name is John Cannon. I serve as Vice President - Sales & 
Marketing for Walker Group Holdings. We are a company of over a 
thousand employees, and in a typical year we produce 3,000 
cargo tanks.
    I am a professional engineer and a design certifying 
engineer in accordance with U.S. DOT rules, so I feel I am 
qualified to testify about some of these matters. Today I speak 
to you on behalf of not just my company but also the industry. 
As Congressman Petri pointed out before, I have had the 
privilege of serving in leadership positions on several 
industry groups.
    Allow me to preface my remarks by indicating that I share 
concerns that have already been shared here today about whether 
this wet lines ban can be justified, and I am especially 
sensitive to the issue as far as the risk of retrofit. My 
company operates a number of repair facilities across the 
country. While we would stand to benefit economically from 
performing this repair, we would rather not, because the risks 
involved are so great.
    For your consideration today, I would like to offer 
comments on four specific areas, first of all, the scope of any 
wet lines ban, should your Committee decide to move forward 
with wet lines legislation.
    Secondly, I would like to comment on the need for 
flexibility.
    Third, I would like to offer a few comments on time 
required for coming up with alternative solutions.
    And, fourth, I would like to speak about the importance of 
allowing alternative solutions on both existing tanks as well 
as new tanks.
    First, regarding scope, I would ask that all of you please 
know that not all tanks are the same. As many of you may have 
seen today, a typical DOT 406 tank can have up to 50 gallons of 
product piping. In contrast, a 407 tank can have less than 1 
gallon. So the risks involved with these two different vehicles 
is considerably different.
    Secondly, I ask you to take into account that a DOT 407 by 
its nature might haul a different chemical every day of the 
week, one day a Class 3 flammable like xylene, the next day it 
might haul caustic soda. As a result, this type of trailer is 
cleaned almost daily. The presence of a purging system or some 
other internal mechanism would create a serious cleaning issue, 
a contamination issue, and an unintentional hazard as far as 
the hazardous material reaction.
    The second area I would like to comment about is 
flexibility. I believe the free market is best served if your 
Subcommittee will allow for different innovations to be brought 
to address this potential issue. A strict wet lines ban would 
stymie innovation, in my opinion. Our industry cannot be 
limited to just one solution. One feasible alternative approach 
I would like to discuss today is what we call the encapsulated 
wet line.
    But let me make a very important distinction. This is an 
encapsulated wet line that would also include piping that is 
much stronger than the tank itself. The idea behind this is in 
the event of the extremely rare event of a side impact the 
piping may be dislodged but no contents would escape and become 
fuel for ignition.
    As far as time, 2 years has already been provided for in 
H.R. 4016. For various reasons that are outlined in my written 
testimony, we would respectfully ask that 3 to 4 years be 
provided. In my experience, developing several products over 
the last 22 years, all of these steps have to be followed to 
ensure the best possible products are brought to market.
    Finally, I would ask that whatever is allowed on a retrofit 
basis also be able to be allowed to be applied to new equipment 
that would allow fleets large and small to have commonality of 
parts and the same procedures to ensure the safety of their 
workers.
    In conclusion, I ask that you carefully consider what, if 
any, cargo tanks should be subject to a wet lines ban and, if 
enacted, a wet lines regulation should allow alternative 
approaches for both new and retrofitted equipment.
    Thank you, and I am available for any questions you may 
have.
    Ms. Brown of Florida. All right, Mr. Andenmatten.
    Mr. Andenmatten. Good afternoon, Chairwoman Brown and 
Members of the Subcommittee. Thank you for your gracious 
invitation for us to testify before you on the hazards of wet 
lines practices and on our wet line technology that has been 
proven in the field over the past 11 years to eliminate these 
risks in a simple, efficient, and an economical way.
    My name is Ron Andenmatten. Together with my brother, Roy 
Andenmatten, we are co-owners of Cargo Tank Concepts and we are 
the co-owners of the wet lines purging system. This system was 
demonstrated on the Dateline NBC episode reporting on the 
hazards of wet lines and entitled Wet Lines Running on Empty. 
That episode first aired in May of 1999. Shortly thereafter, 
the U.S. DOT responded to the NTSB that a rulemaking would be 
shortcoming.
    It is a travesty of both public safety and common sense 
that gasoline tanker trucks continue to transport up to 50 
gallons of gasoline and frail 4 inch diameter outlet pipes that 
are actually designed to fail if impacted in an accident. These 
pipes, commonly known as wet lines, were never designed to 
carry gasoline. Thus, with the exception of Sunoco and a few 
others, gasoline tanker trucks that are daily being operated in 
a way that they were never originally designed.
    You have heard the testimony from the NTSB that wet line 
incidents are underreported. The opposition has stated that 
these are rare events, but they continue to base those 
arguments on a database that the NTSB has shown provides no 
means for indicating whether or not a wet line incident may 
have actually occurred.
    Many of the noted wet line fatalities were never originally 
reported as wet line incidents, nor were they uncovered through 
this very same U.S. DOT database that the opposition uses to 
compute this alleged rarity.
    In light of the foregoing, we believe the burden of proof 
here should not belong to the public safety.
    I would like to ask the Members of Subcommittee to ask 
themselves this simple and obvious question: Is it logical to 
assume that outlet piping designed to fail if impacted in an 
accident will rarely do so?
    Of even greater importance than the misrepresentation of 
the frequency of wet lines incidents are the understatements of 
the potential consequences. It is important for the Members to 
understand that wet line hazards are not limited to the 
gasoline in the wet lines, but rather they also involve the 
entire load of the cargo tank once the wet line gasoline pool 
ignites.
    An NTSB report concluded that a non-traffic accident 
resulting in a wet line release of just 28 gallons of gasoline 
was sufficient to cause the entire tanker to burn out of 
control and destroy a $7 million thruway overpass. It is absurd 
that this $7 million figure has been used in cost/benefit 
analyses as a worst case scenario. This accident could just 
have easily occurred on a suspension bridge. The heat generated 
would be more than adequate to compromise the main cable and 
bring down the bridge. I ask the Members of the Subcommittee to 
seriously consider how much that might cost.
    All too frequently we have seen how regulatory action can 
stall on a safety issue until the worst finally does happen and 
the wet line issue has been stalling for decades.
    In light of the foregoing and in the interest of public 
safety and our national infrastructure, I implore the 
Subcommittee to act now on behalf of public safety where others 
have failed, to stop the endless cycle of revisiting the same 
old issues and to address the facts, concerns, and 
recommendations on wetlines, as addressed by the National 
Transportation Safety Board.
    Sunoco has identified two accidents in the Philadelphia 
area where it believes purged lines may have prevented the 
destruction of its trailers. With Sunoco's estimate of the cost 
of each combined tractor-trailer exceeding $200,000, the 
benefits of the system has already potentially paid for the 
cost of Sunoco's entire fleet on this basis alone. Remember 
that this figure has not even factored in the savings of the 
other costs normally associated with such an incident, such as 
the cost of emergency response, environmental response, 
collateral damage to the public infrastructure, injuries, 
fatalities, lawsuits, etc.
    Sunoco has also stated they have reaped substantial 
serendipitous benefits through increased driver awareness.
    One of the biggest complaints voiced by the opponents to a 
wet line prohibition is the misconception that welding is 
required for retrofits on existing tank equipment. This is not 
so. As you should have witnessed earlier this morning, a non 
welded option is available where a smaller check valve is 
easily installed by drilling and tapping a small hole through 
the emergency valve flange.
    We also wish to announce to the Subcommittee that we are 
now offering to any customer, who is willing to convert their 
fleet, the installation of our automated purging system at 
their facility absolutely free.
    There are two misconceptions I would like to address. The 
first is that our purging system is the only one available. In 
the February 2002 edition of Modern Bulk Transporter, one of 
the most prominent industry journals, the marketing of three 
different purging systems that were demonstrated at the October 
2001 NTTC cargo tank maintenance seminar, were described and 
compared in detail. In the article they state, ``Mechanical 
purging systems are available from three companies, Civacon, 
EBW, Incorporated, and Syltone Industries. Representatives from 
the three companies discussed the features of their products at 
the cargo tank maintenance seminar.''
    Another myth is that accidents that show a release of more 
than 50 gallons of gasoline cannot be considered wet line 
incidents. One of the biggest benefits of the purging system is 
that it prechecks the integrity of each emergency valve on each 
and every load. This is important because the emergency valve 
is what controls the entire contents of the compartment. When 
installing our system we have found on average that about 1 in 
every 10 emergency valves is either leaking or stuck open and 
needs servicing and/or replacement. That amounts to about one 
in two trucks having a leaking valve.
    One of the reasons for this development is that when the 
industry switched to bottom loading there was no longer any 
continual way of telling when the emergency valve was leaking. 
It is important to understand that an emergency valve that is 
leaking or stuck open will discharge the entire contents of the 
compartment if the outlet piping is damaged. Consider the 
consequences of 2,500 gallons of gasoline pouring out within a 
city, near any of the many subway ventilation gratings within 
the subway system and streets. A resulting explosion in this 
scenario would be catastrophic. It is important to note that no 
product would be released in this case, had a purging system 
been installed. The faulty valve would have been discovered 
before leaving the terminal. Thus this scenario represents a 
wet line accident with a faulty emergency valve.
    Ms. Brown of Florida. We have to get into the questioning, 
and we will give you an opportunity to answer your questions 
and finish your statement.
    Mr. Andenmatten. Thank you, Madam Chair.
    Ms. Brown of Florida. Ms. Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair, and I am still 
very interested in the lithium battery transportation, and one 
of the things that was not brought up was any training to 
personnel, whether loading, off-loading, any of the personnel. 
Is OSHA involved in being able to establish that or is there 
anything that protects them and protects the passengers?
    Mr. Rogers. Thank you. We do feeling training is a very 
important part of the issue. And currently no training is 
required for carriers that accept or transport these batteries 
because they are not considered as part of the hazardous 
materials regulations. They are accepted from the majority of 
the requirements.
    Mrs. Napolitano. Wouldn't the bill of lading be able to 
determine or the pilot--you know, trucks have to carry a bill 
of lading, trains have to carry a bill of lading. Why wouldn't 
there be one afforded the pilot so they would know what you 
have on board?
    Mr. Rogers. We strongly agree with that. What we have is a 
notice to pilot command of the dangerous goods hazardous 
materials that are on the aircraft. Lithium batteries are 
specifically exempted from that requirement. So we could have 5 
pounds of dry ice----
    Ms. Napolitano. And the reason it is exempted?
    Mr. Rogers. Well, it goes back to the history I think a 
lot, because batteries, before lithium batteries came into the 
market, they generally weren't a problem with the alkaline 
batteries.
    Mrs. Napolitano. So there hasn't been an update on the 
regulations is what you are saying? Because I am concerned, and 
Ms. Edwards is saying when there is fire in there, there is 
very little you can do about it unless you are trained to be 
able to do something about it or with it.
    Mr. Rogers. Right. And let me make clear the legislation 
here and what is being proposed would require training for 
people. It would bring them into the fully regulated dangerous 
goods scheme, hazardous materials scheme. So anybody who would 
transport these would be required to then have training.
    Mrs. Napolitano. On both the lithium and the wet lines is 
Homeland Security involved in any of this? Because that could 
pose a big problem for any major site where a truck would be 
taken in the area, in your area.
    Mr. Casey. Not on lithium batteries.
    Ms. Napolitano. No, no, I am talking about the wet lines 
specifically.
    Mr. Casey. Don't know.
    Mrs. Napolitano. Anybody?
    Mr. Byrd. There is, not wet lines specifically, but for 
drivers of HAZMAT laden cargo tanks, they would have to get 
background checks per TSA, Homeland Security requirement.
    Mrs. Napolitano. That brings the point for the fire 
protection. Are the fire departments trained in HAZMAT or the 
areas where these trucks may be carrying flammables?
    Ms. Windsor. I would say most of the time that there is 
emergency response within an area that would be able to handle 
any existing emergency with them.
    Mrs. Napolitano. Thank you, Madam Chair. I will save my 
questions.
    Ms. Brown of Florida. Mr. Shuster.
    Mr. Shuster. The question of the lithium batteries, Mr. 
Casey and Mr. Rogers seem to have two very different views on 
what is out there. First question is the fire suppression, Mr. 
Rogers said that it is on most planes. Can you respond to that, 
Mr. Casey?
    Mr. Casey. It is in the lower decks of passenger aircraft. 
And as he mentioned, many cargo aircrafts there are fire 
suppression systems. One of the questions that some of our 
members raised was under the legislation would those systems be 
regarded as meeting the criteria of the legislation. We know 
there is suppression systems, but whether it meets the intent 
of the legislation, at least for some of the members, that is a 
genuine question.
    Mr. Shuster. The government would say not up to standard, 
not up to what we would want--you would have to retrofit them.
    Mr. Casey. We don't know what would emerge from the 
legislation in a rulemaking proceeding.
    Mr. Shuster. The other question on true accessibility, I 
mean I have talked to some folks who say these things are more 
like a truck, you pack it full of stuff and there is not really 
an opportunity for the crew to get back into the cargo area.
    Mr. Casey. Well, a narrow bodied aircraft there is 
obviously a consideration, yes.
    Mr. Shuster. Say that again.
    Mr. Casey. A narrow bodied aircraft, like 737, something 
like that.
    Mr. Shuster. There is not room to get back to----
    Mr. Casey. As I understand it, typically not.
    Mr. Rogers. Can I address that too as well? In the 
dangerous good scheme there are many, many commodities that are 
required to be crew accessible. That is not a new provision.
    Mr. Shuster. Say that again.
    Mr. Rogers. There are many commodities that are required to 
be crew accessible. That is not a new provision for the HAZMAT 
regulations. They are applying something that is already in 
place.
    Mr. Shuster. For cargo planes?
    Mr. Rogers. For cargo aircraft. And I think it is important 
to keep in mind that if this fire becomes uncontrolled there is 
no way to put it out and we risk losing the aircraft. So we 
need to have some way of addressing the issue, and whether that 
is a fire suppression system in the lower holds or something 
they are putting on the aircraft or developing new packaging 
that would prevent it. The very minimum is at least having the 
crew be able to access this commodity and fight the fire.
    Mr. Shuster. And the third question is on the 
international, the ICAO rejected what we are proposing and the 
Secretary seemed to say it is not going to affect our industry, 
our air cargo industry. I can't imagine that it's not going to 
have some kind of impact on it. Could you both talk a little 
bit about what your view is, what you think is likely to 
happen?
    Mr. Casey. It clearly will. If you have disparities, that 
is a problem. Harmonization is a topic that whether it is 
HAZMAT, whether it is safety, or whether it is security, we 
keep trying to achieve in the international arena. And the 
reason for it is both for safety or security, but also because 
of operational considerations. If you get disparate regimes out 
there you have got a problem on your hands. Moreover if you 
have disparate regimes there are other jurisdictions out there 
that have shown a desire to regulate, a real willingness to 
regulate, and we don't want to encourage that kind of 
individual regulation outside some sort of an international 
framework.
    It is not an easy issue, not easy to achieve, there are 
frustrations along the way. But from our perspective, whether 
we are talking about HAZMAT, whether we are talking about 
aircraft certification issues, or whether we are talking about 
civil aviation security issues, we want a seamless 
international environment.
    Mr. Rogers. I think that is an excellent question, and I 
actually am the panel member for the pilots at the ICAO 
Dangerous Goods Panel. I participated fully in those 
discussions last month. It was our proposal that was ultimately 
not accepted. I think it is also important to point out that 
whether we allow this process to go forward though an NPRM or a 
legislation there will be a lack of harmonization. So that will 
happen regardless.
    The question comes up why didn't ICAO adopt these 
provision. Well, one of the reasons is the U.S. has the best 
reporting system in the world and they would--almost all of the 
incidents involve U.S. carriers or in the United States. I 
don't believe that is because the United States is doing this 
any worse than anybody else. But one instant came from Macau to 
Hong Kong and then was picked up by a U.S. carrier. The fire 
actually occurred on a previous flight, but the Chinese didn't 
report it to anybody. It was only the U.S. carrier that picked 
up the package that was burned and they found it, so they 
reported it. So the visibility of the problem is much greater 
in the U.S. and we have had the accidents.
    Also a lot of the other ICAO panel members pointed out to 
the United States that they haven't even adopted the proposals 
that were enacted in 2007. So it is difficult to say that they 
would want to agree to something new. But as the U.S. pointed 
out at the meeting, the reason why is because PHMSA didn't 
believe that they went far enough and they are wanting to 
create additional regulations here.
    So I think to be able to be a leader in the international 
community this legislation is important because it will put 
these rules in place in the United States and then the rest of 
the world will have the ability to follow and come forward.
    Mr. Shuster. Why did they reject it? I am not quite sure. 
They rejected it because ours are too strict and they didn't--I 
am not sure I follow why they rejected it.
    Mr. Rogers. I am sure there are a lot of different reasons, 
it is hard to summarize a 2-week meeting in 30 seconds. But 
basically they are worried about the cost. Since I last 
testified here in May we have had six fires in the U.S. just 
involving lithium batteries. And so I think at some point you 
have to take action to protect the traveling public and not 
worry quite as much about total cost.
    Mr. Shuster. We certainly do, but when the international 
community is rejecting us outright, that says to me that it is 
going to cost jobs, there will be U.S. pilots that aren't going 
to be flying planes because the U.S.--we have imposed a 
standard on our fleet that they aren't doing on theirs. So it 
will cost us jobs, pilots will be out of work and people on the 
ground will be out of work. So is there some way we can find a 
compromise that the international community will say, yes, we 
can go along with that or are you just telling me they don't--
from what it sounds like, they don't care. It is not that our 
planes are not falling out of the sky because of this.
    Mr. Rogers. Well, let's be clear they have adopted some of 
the proposals, it is not like they rejected everything 
outright. They just haven't taken all the steps that we feel 
are necessary.
    This lithium metal battery ban on passenger aircraft, that 
is clearly something different than the rest of the world, more 
restrictive, and that hasn't cost American jobs. I don't think 
the market for computers or cell phones in the U.S. is 
diminishing rapidly because of these.
    Mr. Shuster. I am not so much talking about the passengers, 
because I understand they have a hundred people up there. Every 
life is precious, but it seems to me that we have to find a 
balance here again.
    Mr. Casey. I am not sure we are even at the point where we 
have to talk about a balance. We are at the point where we have 
to acknowledge that we want to be leaders in this effort, 
number 1, but number 2, we also have to acknowledge among 
ourselves at least that we don't have unique insight into these 
issues. If at least some members in the international community 
don't share our views, we ought to sit back and take that into 
account. It doesn't mean that the rulemaking isn't going to 
proceed along its own way. I don't mean to suggest that it 
shouldn't, but the rulemaking ought to take into account the 
fact that expertise in this area isn't limited to those here in 
the United States. There are some countries out there with very 
sophisticated expertise in this area, very sophisticated air 
carriers, and homeland is where people don't want to be exposed 
to unnecessary, unsafe conditions. If they don't share our view 
at an international forum designed to explore these issues, 
that is a consideration.
    Mr. Shuster. All right. I appreciate that. Thank you.
    I yield back.
    Ms. Brown of Florida. I think most of the questions are 
pertaining to the wet lines. Let me just ask the question, 
because both of you represent the industry and seems like it is 
a conflict there because Mr Casey you indicated that you think 
that we need to stand down and let the rulemaking process go 
forward. If we pass legislation, then that would throw it 
behind additional time. So seems like it is a conflict right 
here.
    Mr. Casey. I am not sure it is a conflict and the desire to 
get the same result, at least from the airlines' perspective, 
from ATA members' perspective. We are familiar with the 
rulemaking process. We use it in other areas, not just for 
HAZMAT. We think it is effective because of the involvement of 
whole spectrum stakeholders, which I think in this area is 
particularly important.
    Ms. Brown of Florida. I think so.
    Mr. Casey. There is an entity, PHMSA in this instance, that 
has a statutory responsibility to regulate in the public 
interest. We recognize that. So we are not trying to slow down 
the process. To do that I suspect we would be advocating that 
you to tell PHMSA not to do a rulemaking right now, but we are 
not. What we are saying is it is teed up, let's get on with it, 
let's put it in a forum where everybody has access, where it is 
data driven, where we can go through the record and figure out 
what has happened and we can formulate, if it is necessary, 
changes in the regulatory environment that advances safety 
considerations that have been spoken about this afternoon.
    Ms. Brown of Florida. Mr. Rogers, what problem do you have 
with that? Because if we pass the bill, you know given that I 
always see a bill passed as amazing and the President sign it. 
You have to go through the House, the Senate, committees. It 
may happen 2 or 5 years from now. You know the rule is getting 
ready to happen.
    Mr. Rogers. I think it is an excellent question. In fact, 
that sums up the rest of the remarks I was going to make. We 
think the legislative process is important in this case, mainly 
because we have known about this problem for over 10 years and 
PHMSA has still not acted and taken decisive measures. The last 
time of the issue of lithium battery rulemaking was 2003 and it 
took over 4 years for that to come into place and then it still 
didn't go far enough. It has been over 2 years since the NTSB 
issued the recommendations and they still haven't enacted the 
NPRM process.
    So I think with the legislative process it would ensure 
even with that 2 years a much faster track and would also 
ensure that there wasn't such this delay from the issuing of 
the NPRM through all the comment period lawsuits, everything 
else, until the actual rule is taken into place. Because when 
the requirements would be set down here through the legislative 
process it would be much clearer what had to be done and the 
process could go forward much more quickly. It would also 
ensure that the rule that is ultimately published by PHMSA 
would meet the standards Congress is establishing here.
    Ms. Brown of Florida. Mr. Walz.
    Mr. Walz. Well, thank you all again for your testimony and 
your expertise, it is truly appreciated. We have all talked 
about striking this balance between safety and making sure that 
we are competitive. But I have to tell you I simply don't fully 
embrace this. If others don't do it, we can't because we are at 
a competitive disadvantage. We have child labor laws, and that 
probably puts us at a competitive disadvantage, but I am not 
about to roll that back. I have also flown on one of those 
regional carriers from Guangzhou to Chengdu, and I was never so 
damn happy in my life to get on the ground.
    So there are reasons here and there are things that we can 
lead on. I don't want to put an undue burden on this, but I am 
looking at this legislation again, proper labeling, testing of 
batteries, proper packaging. Why is that so burdensome, Mr. 
Casey? Why does that pose a burden? Why shouldn't we lead on 
this issue? Because you are hearing from the pilots. I am 
concerned about this from the pilots perspective. They are 
saying it is a danger to them and they are in the plane.
    Mr. Casey. I understand the concern. No one is disputing 
that this is not a serious issue. We think though that the 
rulemaking proceeding is the best way to get it out on the 
table, it is transparent as all get out, it is public record.
    Mr. Walz. Mr. Roger's concern that we are dragging on feet 
on this is another way to drag it out, do you feel that is 
warranted.
    Mr. Casey. From our perspective it is just the opposite. 
What we have heard this afternoon is we are about to see a 
rulemaking proceeding come out of the OMB process. So it is 
there.
    Mr. Walz. Okay.
    Mr. Casey. We are all going to be involved in it when it 
comes out. We don't have to wait until--no offense, until there 
is congressional action. It is going to be there.
    Mr. Shuster. None taken.
    Mr. Casey. It is going to be something that anybody, 
anybody with an interest, including those who may be very 
strident on the issue, have the opportunity to express 
themselves and try to persuade the decision maker about it. So 
we don't have any concern about getting involved in that kind 
of a process. We think it is the optimum way to proceed, 
particularly given the concerns that have been expressed this 
afternoon.
    Mr. Walz. Does it concern you that the lithium manufacturer 
told Chairman Oberstar that they would get this thing killed at 
OMB? Does that kind of stuff matter?
    Mr. Casey. I----
    Mr. Walz. I know you can't speak directly for them. That is 
one of my concerns. I wouldn't argue that there is faster ways.
    Mr. Casey. We didn't try to get it killed, and that is my 
whole point today. We are not trying to object the rulemaking 
process. We are willing to accept it.
    Mr. Walz. Well, I appreciate it.
    Mr. Rogers. I would like to point out again that the 
Department of Transportation indicated that this is not 
inconsistent with what they are trying to do. We are not 
interfering with the goals of the rulemaking process, but your 
concern about what was said to Mr. Oberstar is exactly my 
concern. The last time any lithium battery regulation was 
proposed in 2003 it was delayed and delayed through lawsuits 
and different tactics to from prevent that from ever reaching 
the light the day. And I think in light of the fact that these 
are clear safety priorities, we are talking about labeling and 
limiting the quantity on the aircraft, and that is consistent 
with what DOT wants to do, then I think this is important and 
will help the process along and it won't hinder it.
    Mr. Walz. You mentioned other products. Could you name one 
for me? Other products that are done that way, that are done 
that way, things that are shipped and already labeled and 
already have this.
    Mr. Rogers. Yeah, there has thousands of them, ethanol, 
fuel cells, hydrochloric acid, all kinds of things. But I will 
point out that if we have 5 pounds of flammable paint on the 
aircraft the pilots are notified that it is there, and that 5 
pounds of flammable paint could be located next to a thousand 
computers or a thousand lithium batteries on a pallet and will 
have no idea that they are even there.
    Mr. Walz. Very good. I am going to switch gears.
    Ms. Windsor, thank you for your testimony and your real 
world experience. This does matter to us and you have heard us 
all express concerns in trying to get this right. I want to be 
really, really sensitive to cost, because you have your costs 
that are already associated with your business.
    Any chance we get any savings on insurance by doing this, 
by putting these purges in there? Is that a silly question 
dealing with insurance companies?
    Ms. Windsor.  I wouldn't be able to see it. No.
    Mr. Walz. You quote a number of $800,000, you are figuring 
$800,000 per retrofit.
    Ms. Windsor. Correct.
    Mr. Walz. I am hearing from the other industry folks, 
Sunoco folks, that said it was about 4,000 for them. It matters 
and I am not saying that is a small--400,000 is still big. How 
would the 800,0000 compare to your general maintenance like 
tires and other things that you do? Is that a big percentage?
    Ms. Windsor. It is major, it is a large number, yes.
    Mr. Walz. This is a major purchase.
    Ms. Windsor. It is a major purchase and then it would give 
us--we would not be able to put other safety items on there 
that I would rather invest in.
    Mr. Walz. Is the compromise that everything new because I 
am assuming you are figuring this retrofitting every one of 
yours. Some of your trucks will be off the road by 2020, right, 
new ones will come on?
    Ms. Windsor. Very few, because cargo tanks last forever. 
They really start and through the years they go from a gasoline 
tanker to hauling diesel fuel to jet fuels down to deicer----
    Mr. Walz. So some type of solution with all these others 
still needs to be there whether it is a mandated standard, not 
a retrofit, if it is the dumping at the rack or whatever.
    Ms. Windsor. Right.
    Mr. Walz. But we are still going to have to deal with all 
those because you very well could have a good percentage of 
those on.
    Ms. Windsor. That is right.
    Mr. Walz. So if you are looking out at 2020 and figuring 
your budget and everything, this is a big hit.
    Ms. Windsor. It is a major hit, especially for a small 
company.
    Mr. Walz. Compared to anything else that we have done that 
looks like this to you?
    Ms. Windsor. Currently, no, this is major.
    Mr. Walz. I yield back. Thank you.
    Ms. Brown of Florida. Mr. Cummings.
    Mr. Cummings. I just have one or two questions, Mr. Casey--
I am sorry, Mr. Cannon. You talked about a year being needed to 
bring about the manufacturing of alternative approaches. Are 
there things under development now with regard to wet lines? Do 
you have something in mind there? I know you talked about 2 
years of getting things to market. Do you have something in 
mind? Is there research being done, alternatives that we need 
to know about?
    Mr. Cannon. Well, Congressman Cummings, there were several 
different alternatives that were being pursued the last time 
the U.S. DOT considered a wet lines ban, but all of those were 
ultimately shelved.
    Mr. Cummings. You said shelved?
    Mr. Cannon. Shelved. Once it was concluded by the DOT that 
the cost/benefit analysis did not suggest going forward. That 
having been said, we think that there has to be at least 1 year 
for research and development once legislation is enacted and 
rules are promulgated by the U.S. DOT because we have to know 
what the standards are before we can actually develop products 
that are going to meet the various standards, and hopefully it 
is a performance standard that will allow many different 
solutions.
    Mr. Cummings. When you look back at those things that have 
been shelved, are you familiar with them?
    Mr. Cannon. One of them is what I have described for you 
here today, Congressman Cummings, the encapsulated wet lines. 
There had been quite a bit of work done on that. In fact a 
prototype valve had been developed and so forth.
    Mr. Cummings. That is all I have.
    Ms. Brown of Florida. Ms. Edwards.
    Ms. Edwards. Thank you, Madam Chairman. Mr. Casey, I want 
to go back to your testimony. In your written testimony and 
also in the presentation you indicate, and I quote, the 
legislation under consideration which would not be enacted into 
law for some time and by its own terms would not require a 
final rule until 2 years after its enactment could have the 
intended but very real consequence of interrupting the 
anticipated rulemaking proceeding.
    And my question is whether that conclusion changes based on 
the testimony that you heard from the earlier panel and Deputy 
Secretary Porcari, who indicated that there was nothing really 
inconsistent in what they were doing in the rulemaking process 
and this legislation.
    Mr. Casey. I don't think it does, because if legislation is 
enacted, they are going to have to refashion whatever the 
rulemaking looks like to fit into the legislative demands.
    Ms. Edwards. Well, let me just go to that. Can you just 
tell me if you would in the process that is going on now 
whether the list of requirements, as I read the list of 
requirements in the bill numbers 1 to 8, that those are 
entirely consistent both with the Deputy Secretary's testimony 
here in September and what he said today. And so it seems to 
me--and also the window is not a finite 2 years, it says within 
2 years.
    Mr. Casey. Yes, that is true.
    Ms. Edwards. If that rulemaking is proceeding and we pass 
legislation, there is nothing at all that says that the 
rulemaking couldn't proceed or it couldn't be simply 
refashioned or restructured given that they believe that they 
are the same requirements. So I am really unclear about your 
resistance to the legislative process, merely clarifying that 
the Department has the responsibility to produce rules for the 
transportation of lithium batteries and also the wet lines 
issue.
    Mr. Casey. We agree that they do clearly. What we haven't 
seen is the rulemaking. So I can't tell you whether there is 
going to be an exact match or not. I think that anybody 
involved in regulatory proceedings if they have a piece of 
legislation that is enacted after the proceeding begins is 
going to take a look at refashioning the proceeding in light of 
the legislation.
    Ms. Edwards. Or making sure that is it is consistent, and 
certainly the Department is aware of this legislation, they 
have testified before this Subcommittee and the Full Committee 
about the legislation. You heard the Deputy Secretary say here 
today that indeed what they are pursuing is really consistent 
with the legislation.
    So again I am really unclear about the resistance. And so I 
would also--I also want to ask Mr. Rogers if you would. There 
are instances where the United States in the international 
environment actually leads and instances where if there are 
changes that are made to our law here that that actually 
becomes a standard in the international community. And so I 
just wonder in the process that you have been involved in, has 
that been part of the discussion as well?
    Mr. Rogers. Oh, absolutely. And I know in speaking with, it 
was brought up earlier what would happen perhaps with Canada 
and Mexico, and I know Canada is following extremely closely 
what is happening in the United States with relation to lithium 
batteries. Without speaking for the Canadians, I think they 
would find it very difficult to justify to their constituents 
why they wouldn't adopt something that has been proven 
successful for the United States. And if this rulemaking, as I 
believe it will, helps result in fewer instances and risk to 
the traveling public then I think that will serve as a role 
model and certainly a very strong argument for other states in 
ICAO to adopt the same provision.
    Ms. Edwards. And of course risk to workers as well.
    Madam Chair, I just have one last question. It actually 
goes to Ms. Windsor and Mr. Andenmatten, because I am really 
curious about the disparity in the dollar figures that are 
cited for the purging systems. I don't really know that I quite 
understand it, it is on one hand $8,000 per and another $4,000 
per. I thought I understand from earlier testimony that there 
was only one system available, but in your testimony, Mr. 
Andenmatten, you indicate that there are several technologies 
available.
    Mr. Andematten. Yes, as I testified, I don't know what the 
present status of the technology is but they were certainly 
demonstrated back in 2001. So it was not just our own purging 
system, I believe, as they said, Civacon and EBW also had a 
system. So there are at least three purging systems that were 
demonstrated at that time.
    The other issue regarding this concern is about us being 
the only manufacturer. In fact this process has dragged on now 
for so long our patent was filed in 1992, it expires in 2012. 
So our----
    Ms. Edwards. So by 2020---
    Mr. Andematten. By 2012 I believe--my estimation and I know 
business fairly well, I can tell you that there are going to be 
so many people ready to pounce on and just copying our system, 
I believe, because I think it is a good system, but others will 
come up with their own systems. They are going to be--it is 
extremely aggressive in development.
    Ms. Edwards. So even for some of us who don't believe the 
free market drives everything, in this instance the free market 
actually could really drive additional technologies and 
production. Ms. Windsor, and I will conclude.
    Ms. Windsor. Again, our numbers are approximate numbers, 
because we are taking the approximate cost of the product, the 
only system currently that is on the market, and that we 
understood was between 3,000 and 3,200 to the shops themselves 
and then obviously there is a markup. Then the trailer has to 
be cleaned, which is another cost. We have understood from 
Superior Tank that they said the average cost is approximately 
2,700 to 3,000 for installation. We are talking about 
approximately 4 days of down time and I am unable to use the 
equipment at all, and taxes, and then reinforcement of 
different hoses and gaskets could be another additional 
thousand dollars. We know seriously there is only one system on 
the market. The other systems are not yet been marketed. I 
understand it is only to a private fleet. There is not a common 
carrier that is using the system.
    It adds additional issues that once the system is put on 
and you have loaded this product and you don't have what we 
call green light or you haven't purged all the lines and you 
are at a loading facility, can you go to the street then with 
one line still having product in it. And if you can't then it 
has to be pumped off at the loading facility, and then who owns 
the gas? Do I then own it if they are not going to take it back 
at the loading facility?
    So we are talking about as future times go on there could 
be additional costs that are going to be put on to the common 
carrier versus a private fleet who owns the gas the entire time 
they are transporting it.
    Ms. Edwards. And was your $800,000 estimate over a 10-year 
period?
    Ms. Windsor. It was if we did it immediately, yes.
    Ms. Edwards. In terms of the lifetime.
    Ms. Windsor. Well, our trailers, we keep them in service 
for well over 10 years.
    Ms. Edwards. How long do you keep them in service?
    Ms. Windsor. We have some 30 and 40 years old.
    Ms. Edwards. Thank you.
    Ms. Brown of Florida. Thank you. I have a couple of 
questions and I think Ms. Windsor and Mr. Cannon----
    Mr. Andenmatten. Andenmatten.
    Ms. Brown. No, no. Your question is different. You two have 
some of the same issues, the costs. This is a major issue and I 
think we can break it down. For example, the cost on a new 
truck, I think that is one issue. Let's talk about that. If you 
are going to buy an additional truck and if the wisdom of the 
Committee is that we want to add the system, would you look at 
it differently as buying a new truck? I understand the cost on 
a new truck could be 1,500 to $3,000.
    Ms. Windsor. We understand it could be at least that if not 
more.
    Ms. Brown of Florida. On a new truck.
    Ms. Windsor. On a new trailer, yes. It could be anywhere 
from 3 maybe up to $5,000 on a new one. And once again if I 
were to purchase one trailer tomorrow, do I then make a 
decision if I am going to put that device on or an anti-roll 
device, because there is more trailers that are rolled----
    Ms. Brown of Florida. I understand, the roll is the real 
issue.
    Ms. Windsor. Yes. Again the six deaths that have occurred 
have--on a normal day a tractor and trailer going down the road 
does not have people running up underneath of them. It is when 
they are stopped or someone runs a red light or unfortunately 
drunk drivers. Cars do not end up underneath tractors and 
trailers under normal operation.
    Ms. Brown of Florida. Mr. Cannon.
    Mr. Cannon. I agree with Ms. Windsor, those figures. New 
equipment, once Federal excise tax is figured in, the cost 
would approach $5,000 per unit.
    Ms. Brown of Florida. And how many trucks are we talking 
about? We understand the new trucks, but the retrofitting is 
the one that we have the serious issue with and how many trucks 
are we talking about?
    Mr. Cannon. Conservatively as far as gasoline tank 
trailers, there would be over 30,000 that would have to be 
retrofit. Our concerns with that again we are a major repairer 
of cargo tanks. Our concern with that is having to do any work 
with inside the tank. There are very many cavities that contain 
vapors within a gasoline tank. Those cavities cannot always be 
completely purged. And to whatever extent there is any welding 
arc or any spark from working on metal there is a chance of a 
catastrophic failure. I would suggest to the Committee the risk 
is far greater than the 20 deaths that have occurred in the 
last 10 years.
    Ms. Brown of Florida. Mr. Byrd, I find your comment, 
reading your testimony, at first you were against it because 
you felt it would affect the job retention in the industry, 
but--and it might threaten jobs, but now you say your issues 
have been addressed. By whom? What has changed?
    Mr. Byrd. Well, actually I testified before this 
Subcommittee back in May, as I recall. I think my position was 
consistent with what I presented today. There was some 
discussion at the Teamsters Union with our tank haul director 
and it is my understanding that our tank haul director had had 
some conversations about some carriers and there was some 
confusion, misinformation or what have you, and that issue 
has--after having some discussions with Committee staff those 
issues were--the concerns were resolved.
    Ms. Brown of Florida. I am sure.
    Mr. Cummings. Does the chairwoman yield?
    Ms. Brown of Florida. Yes.
    Mr. Cummings. Ms. Windsor, I want to go back to something, 
you said there were--- part of the whole balancing act is 
trying to figure out how to strike a balance, but you said 
something very interesting. You said that doing this would 
cause you perhaps not to be able to do other safety things? 
Other than rollover, what other types of safety things might 
you be doing?
    I am trying to see--if we are trying to do this. In dealing 
with the wet lines. I am trying to figure out are other things 
that are just as significant or more significant or more likely 
that you wouldn't be able to do. So I am just curious--I take 
it that rollover is a big deal.
    Ms. Windsor. Rollover is a big deal. There are numerous 
items coming out now for tractors and trailers, lane departure 
warning systems now, systems that tell you when you are getting 
approximately too close to something that an alarm will go off. 
So there is multiple safety equipment that is coming out that 
will assist the driver and help a tractor and trailer, because 
there are so many issues when they are in that truck around 
them. And you know again the lane departure and the anti-roll 
device would be two that I would offhand say that are on the 
market and could be put on a tractor and trailer.
    Mr. Cummings. Thank you, Madam Chair.
    Ms. Brown of Florida. I have been pressed that we are going 
to have to hear from the 1 minutes, because we have to leave 
about 4 o'clock.
    Mr. Shuster. Ms. Windsor and Mr. Cannon and Mr. Byrd have 
been pretty consistent. There has been a complete disregard for 
the loss of life that occurs in the presence of these vapors. 
Three times as many people have left their lives working around 
the vapors. You said you believe, and Mr. Cannon also, that the 
deaths in the shops were undercounted or under recorded.
    Ms. Windsor. Yes, yes.
    Mr. Shuster. What----
    Ms. Windsor. We believe there has been 20 because of the 
welding that we know of.
    Mr. Shuster. All right.
    Ms. Windsor. That is not welding to put this device on, 
that an is normal every day welding. If we take 30,000 cargo 
tanks now and have to weld on them, can you imagine the number 
that would increase?
    Why is it understated? Probably Mr. Cannon could says 
something. You have a welding shop, and I imagine not all of 
them would be reported.
    Mr. Cannon. Right, I don't have specific knowledge about 
the extent of the underreporting of the 20, but I would like to 
echo what Ms. Windsor said, if you have people welding on 
30,000 cargo tanks the risk of having much more than 20 deaths 
is substantial.
    Mr. Shuster. Even in light of OSHA coming out with new 
regulations. I talked to a gentleman today who said we were 
OSHA compliant, it was the individual did something wrong and 
then of course OSHA came in and said oh, you are not in 
compliance and that is what happens on all these deaths. As 
OSHA rules you think it will make people smarter and follow the 
rules better.
    Ms. Windsor. Well, as Mr. Cannon said, some of these 
trailers have hauled product and have absorbed the fumes and 
the vapors for many years. So they could be doing everything by 
an OSHA regulation, but then all of a sudden there is a pocket 
or a pit that has absorbed the products or the fumes so when 
they start the welding it is just enough that it would ignite 
and explode even following directions.
    Mr. Byrd. If I might, in terms of the underreporting of 
fatalities----
    Ms. Brown of Florida. Mr. Byrd, I think you would report it 
because your drivers are trained, is that correct?
    Mr. Byrd. Our drivers are trained as drivers, yes.
    Ms. Brown of Florida. That is what I mean, as drivers. If 
they have an accident or if there is an incident don't they 
report it?
    Mr. Byrd. Yes, yes. There is a requirement that if you are 
involved in an accident, so yes, they would report that per 
regulations and per contract obligations.
    Ms. Brown of Florida. Why is it such a concern on the 
underreporting if the drivers, that is their responsibility; if 
they are involved in an accident, they report it?
    Mr. Byrd. I am not sure that--I am certain that all drivers 
are not unionized drivers.
    Ms. Brown of Florida. Okay, okay. 
    Mr. Byrd. They may not have the same--feel the same 
obligation to report.
    But if I might, in terms of underreporting of OSHA of 
fatalities----
    Ms. Brown of Florida. It is not fatalities, it has to be 
accidents.
    Mr. Shuster. Well, we are talking about the shops, the 
shops.
    Mr. Byrd. We are talking about the shops. OSHA has a very, 
very rigorous reporting system in place in term of fatalities. 
So I would find it very, very difficult to believe that there 
would be fatalities that would go unreported in an OSHA covered 
facility. I think I needed to make that statement.
    The second thing is the Congressman Shuster made the 
comment that people do dumb things, and that is one of the 
reasons why. We trying to engineer those human factors out of 
certain situations to reduce risk of accident. So I just wanted 
to state that for the record.
    Mr. Shuster. The Teamsters' view on this is three times as 
many fatalities in the shops.
    Ms. Windsor. And the 20 that we are using came from an 
Internet based search. It did not come from OSHA because we do 
not have access to OSHA records.
    Ms. Brown of Florida. We have 10 minutes and 10 people. In 
Congress we have what we call 1 minutes. So anyone that wants 
to go to that mike you are going to have one minute, that has 
not gotten a chance to testify may come to the mike right here. 
10-minute----
    But first Kenan Advantage Group from North Carolina that 
flew in give him a chance.
    Go ahead, sir.
    Mr. Moulder. Well, thank you, good afternoon, and thank you 
for the opportunity to speak on the potential wet lines ban 
contained in H.R. 4016. My name is R.J. Moulder. I am the Vice 
President of Fleet Services for the Kenan Advantage Group. The 
Kenan Advantage Group is the largest petroleum carrier in the 
United States. We employ 5,500 individuals and operate 2,612 
cargo tanks for delivery of gasoline and other flammable 
liquids in 38 States.
    This year we will deliver over 18 billion gallons of 
refined petroleum products by truck. This equates to a load of 
fuel delivered every 15 seconds, 24 hours a day, 7 days a week. 
We currently do not operate any purging systems on any of our 
transports. However, as we have with other safety devices we 
may choose to continue to field test observations as technology 
evolves.
    The Kenan Advantage Group has never had a wet lines 
incident that has resulted in an injury or death. We also 
invest in the latest safety technologies such as truck and 
trailer roll stability systems, collision warning technologies, 
and wheel off prevention devices. Unfortunately, a wheel line 
retrofit requirement, which will cost this company over $18 
million, will divert funding and delay the deployment of these 
already safe proven safety technologies which are far more 
likely to save lives than a wet lines purging system.
    Thank you, and I will be able to answer any questions.
    Ms. Brown of Florida. Thank you. Would your put your 
testimony in the record.
    Mr. Moulder. Yes, I will provide that.
    Ms. Brown of Florida. Thank you very much for coming, too.
    Yes, sir.
    Mr. Bolling. Glen Bolling, and I am from the battery 
industry representing SAFT. I think the reason we would like to 
see the section 201 either deleted or modified is because today 
it only represents only one side of the situation, and the 
rulemaking process allows all sides to present themselves.
    I will save the rest.
    Ms. Brown of Florida. Thank you very much.
    Mr. Coster. Welcome to Maryland. I am Dennis Coster, 
Fireworks Productions, Incorporated from Maryland Line, 
Maryland. For the past 20 years I run a small family owned 
fireworks display company which puts on fireworks displays 
primarily to celebrate our Nation's independence on July 4 
throughout the State of Maryland, but also Pennsylvania, 
Virginia, Delaware, West Virginia, and New Jersey.
    Our company business, like many across America, is facing 
tough economic times. We struggle constantly to keep up with 
the ever changing regulatory burdens imposed on our small 
company. We have an impeccable safety record with regard to the 
300 displays we conduct annually as well as during the 
transportation process. We are pleased that we have had no 
serious injuries or deaths in our company operations, and we 
wish to emphasize that we have approximately 2,500 different 
types of fireworks products in our current inventory, each of 
which requires a DOT approval before it may enter commerce.
    My company, the fireworks industry as a whole, and many 
more industries across the country have been heavily impacted 
by the difunction in DOT's special permits and approvals 
program. Section 401 of H.R. 4016 takes steps to remedy some of 
the deficiencies. However, the remedies do not go far enough.
    I have a statement of concern from a coalition of 
associations, including the America Pyrotechnic Association 
that I am an active member of, which recommends several 
perfecting amendments to section 401. I am requesting it to be 
included in the official record on this hearing. We urge you to 
incorporate these amendments into H.R. 4016 before the 
committee's upcoming markup.
    Thank you for providing me with the opportunity to 
participate today.
    Ms. Brown of Florida. Thank you.
    Mr. Traylor. Sam Traylor, Eastern Petroleum Corporation in 
Annapolis, Maryland. I have been a fleet manager and safety 
director there for 20 years. Of those 20 years our trucks have 
traveled probably 40 million miles on Maryland roads and never 
once have we had an under ride collision that has involved 
anything other than a small spill in one of our trucks. To 
implement of this evacuation thing under the trucks would cause 
welding, drilling, lines, fitting hoses. And through the course 
of those 20 years had we had all of that on there, when they 
weld and they drill, it affects the integrity of the tank. You 
have got hoses that could leak when the pump kicks in. We are 
going to have products spewing all over the place. Just for the 
bang and buck. At Eastern Petroleum we do everything we can to 
be as safe as absolutely possible. And the rollover stability 
systems are 500 bucks a piece or so, and these will 
dramatically increase the safety of our fleet. Not only will 
you sense when you are going around a roll, that the truck is 
going to roll and pulsate you brakes to bring your trailer back 
down. We can also record that engine and we can take that with 
our GPS and see where that incident happened, what curve it was 
on and know where we have dangerous curse. We can know what 
drivers are giving us problems. There are many things that we 
can do to make us much more safer than the outrageous amount of 
money we are going spend on the system.
    Ms. Brown of Florida. Sir, let me ask you a quick question. 
The rollovers I understand is the major problem in the 
industry, 725 a year. How much did you say it would cost to 
install that system?
    Mr. Traylor. The rollover systems? I think they are like 5 
to 700 bucks per trailer.
    Mr. Cannon. On the trailer they are just under a $1,000.
    Mr. Traylor. I want to say one more thing before you kick 
me out here.
    Let's put the under ride protection, let's keep the cars 
out from underneath the trailers.
    Ms. Brown of Florida. I agree.
    Mr. Traylor. That is right. We can do that a lot cheaper. 
That will give you safety not only when they are loaded but 
also when they are unloaded.
    Ms. Brown of Florida. How do you keep----
    Mr. Traylor. A lot of things we can do. There are a lot of 
things we can do. They say about weight and all that on here. 
But we can put some hose tubes on the other side of the 
trailer, put some hoses in them tubes that will absorb the 
impact and the energy from the car going underneath the 
trailer, and we easily protect under ride, all around the 
trailer, and all the spots where the valves are. It would be a 
little tricky to protect that one area, you would have to have 
a bull's eye to get it.
    Let's keep the cars out from underneath of it. This is very 
cheap, low maintenance, no problem. Put it on there once, you 
are done. This is just completely outrageous, the amount we are 
going to spend, the effort that we are going to have to put 
into this, the problems we are going to have with this system. 
It really baffles me. There are so many things we can do to be 
much more safer, much more cost efficient. Make the rollover 
stability--that is bang for your buck, that is bang for your 
buck. Make them get under rider protection.
    Ms. Brown of Florida. You stay around. I want to talk to 
you when we finish.
    Mr. Cobbs. Drew Cobbs. I am the Executive Director of the 
Maryland Petroleum Council, which is an arm of API which 
represents 400 companies and all aspects of petroleum industry. 
API members own less than a thousand tanker trucks and 
trailers. This number is shrinking as trends and industry 
change. Most of these vehicles are owned by smaller companies, 
by trucking companies, which you have just testified, by 
jobbers and distributors, which also have testified, and 
smaller local companies that really operate these.
    Obviously there are concerns about what is being proposed 
in House bill 4016. We are concerned about a number of issues, 
but we think the points that were raised today about the 
reporting issues, and it is interesting your own bill, this 
bill section 203 addresses reporting issues that you guys try 
to grapple with today, as far as what the figures really are. I 
think long term that a very important element that is supposed 
to provide you all with information and these Federal agencies 
as we go forward.
    The under ride protection as we just mentioned obviously of 
concern that Congressman Cummings, who snuck out, in our former 
lives with the Maryland General Assembly we dealt with this 
issue, and there was a big concern about the safety. As we move 
forward there is just concern and stress that the balance it is 
a fact based process as you go forward.
    Thank you very much.
    Ms. Brown of Florida. Last person.
    Mr. Molner. My name is William Molner. I am President of 
Baltimore Tank Lines, also Chairman of the Tank Council of the 
Maryland Motor Truck Association. I have with me gentlemen in 
the back, if they could stand up. These gentlemen represent 
tank carriers and distributors in the State of Maryland from 
the Eastern Shore to around Baltimore and out into western 
Maryland.
    We obviously stand in support of ATA's and National 
Transport Carriers' position on the wet lines issue. I feel 
that the Committee here, the Subcommittee here, has brought up 
very interesting points today and asked some really good 
questions in regard to our particular issue.
    One of the things that I guess we haven't pushed as hard as 
we should have pushed and that is why isn't this being done at 
the terminal level rather than having to equip at least 30,000 
trailers and maybe more with equipment that may or may not work 
as it should. It kind of reminds me a little bit when we talk 
about equipment for the trucks of the anti-skid devices that 
were placed on trucks back in 1973 that for the most part the 
mechanical stuff worked but the computer things didn't work. So 
they finally had to be unplugged, they had to be put away.
    In 1977, industry went out, we developed what was good for 
the industry, we came back in the early 90s, just about every 
trailer has them on right now, they work great, they have 
spawned anti-rollover, one has built on the other, and we have 
some really good systems out there. But I don't think we are at 
that point right now. There are other things we can do.
    Ms. Brown of Florida. Thank you very much. It was a great 
hearing and it is officially over.
    [Whereupon, at 4:05 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3678.008
    
    [GRAPHIC] [TIFF OMITTED] T3678.009
    
    [GRAPHIC] [TIFF OMITTED] T3678.010
    
    [GRAPHIC] [TIFF OMITTED] T3678.011
    
    [GRAPHIC] [TIFF OMITTED] T3678.012
    
    [GRAPHIC] [TIFF OMITTED] T3678.013
    
    [GRAPHIC] [TIFF OMITTED] T3678.014
    
    [GRAPHIC] [TIFF OMITTED] T3678.015
    
    [GRAPHIC] [TIFF OMITTED] T3678.016
    
    [GRAPHIC] [TIFF OMITTED] T3678.017
    
    [GRAPHIC] [TIFF OMITTED] T3678.018
    
    [GRAPHIC] [TIFF OMITTED] T3678.019
    
    [GRAPHIC] [TIFF OMITTED] T3678.020
    
    [GRAPHIC] [TIFF OMITTED] T3678.021
    
    [GRAPHIC] [TIFF OMITTED] T3678.022
    
    [GRAPHIC] [TIFF OMITTED] T3678.023
    
    [GRAPHIC] [TIFF OMITTED] T3678.024
    
    [GRAPHIC] [TIFF OMITTED] T3678.025
    
    [GRAPHIC] [TIFF OMITTED] T3678.026
    
    [GRAPHIC] [TIFF OMITTED] T3678.027
    
    [GRAPHIC] [TIFF OMITTED] T3678.028
    
    [GRAPHIC] [TIFF OMITTED] T3678.029
    
    [GRAPHIC] [TIFF OMITTED] T3678.030
    
    [GRAPHIC] [TIFF OMITTED] T3678.031
    
    [GRAPHIC] [TIFF OMITTED] T3678.032
    
    [GRAPHIC] [TIFF OMITTED] T3678.033
    
    [GRAPHIC] [TIFF OMITTED] T3678.034
    
    [GRAPHIC] [TIFF OMITTED] T3678.035
    
    [GRAPHIC] [TIFF OMITTED] T3678.036
    
    [GRAPHIC] [TIFF OMITTED] T3678.037
    
    [GRAPHIC] [TIFF OMITTED] T3678.038
    
    [GRAPHIC] [TIFF OMITTED] T3678.039
    
    [GRAPHIC] [TIFF OMITTED] T3678.040
    
    [GRAPHIC] [TIFF OMITTED] T3678.041
    
    [GRAPHIC] [TIFF OMITTED] T3678.042
    
    [GRAPHIC] [TIFF OMITTED] T3678.043
    
    [GRAPHIC] [TIFF OMITTED] T3678.044
    
    [GRAPHIC] [TIFF OMITTED] T3678.045
    
    [GRAPHIC] [TIFF OMITTED] T3678.046
    
    [GRAPHIC] [TIFF OMITTED] T3678.047
    
    [GRAPHIC] [TIFF OMITTED] T3678.048
    
    [GRAPHIC] [TIFF OMITTED] T3678.049
    
    [GRAPHIC] [TIFF OMITTED] T3678.050
    
    [GRAPHIC] [TIFF OMITTED] T3678.051
    
    [GRAPHIC] [TIFF OMITTED] T3678.052
    
    [GRAPHIC] [TIFF OMITTED] T3678.053
    
    [GRAPHIC] [TIFF OMITTED] T3678.054
    
    [GRAPHIC] [TIFF OMITTED] T3678.055
    
    [GRAPHIC] [TIFF OMITTED] T3678.056
    
    [GRAPHIC] [TIFF OMITTED] T3678.057
    
    [GRAPHIC] [TIFF OMITTED] T3678.058
    
    [GRAPHIC] [TIFF OMITTED] T3678.059
    
    [GRAPHIC] [TIFF OMITTED] T3678.060
    
    [GRAPHIC] [TIFF OMITTED] T3678.061
    
    [GRAPHIC] [TIFF OMITTED] T3678.062
    
    [GRAPHIC] [TIFF OMITTED] T3678.063
    
    [GRAPHIC] [TIFF OMITTED] T3678.064
    
    [GRAPHIC] [TIFF OMITTED] T3678.065
    
    [GRAPHIC] [TIFF OMITTED] T3678.066
    
    [GRAPHIC] [TIFF OMITTED] T3678.067
    
    [GRAPHIC] [TIFF OMITTED] T3678.068
    
    [GRAPHIC] [TIFF OMITTED] T3678.069
    
    [GRAPHIC] [TIFF OMITTED] T3678.070
    
    [GRAPHIC] [TIFF OMITTED] T3678.071
    
    [GRAPHIC] [TIFF OMITTED] T3678.072
    
    [GRAPHIC] [TIFF OMITTED] T3678.073
    
    [GRAPHIC] [TIFF OMITTED] T3678.074
    
    [GRAPHIC] [TIFF OMITTED] T3678.075
    
    [GRAPHIC] [TIFF OMITTED] T3678.076
    
    [GRAPHIC] [TIFF OMITTED] T3678.077
    
    [GRAPHIC] [TIFF OMITTED] T3678.078
    
                                    

</pre></body></html>
